<html>
<title> - INVESTIGATING THE NATURE OF MATTER, ENERGY, SPACE, AND TIME</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      INVESTIGATING THE NATURE OF
                    MATTER, ENERGY, SPACE, AND TIME

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2009

                               __________

                           Serial No. 111-54

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
52-294                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant


                            C O N T E N T S

                            October 1, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Prepared Statement by Representative Brian Baird, Chairman, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

Statement by Representative Paul Tonko, Vice Chairman, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

                               Witnesses:

Dr. Lisa Randall, Professor of Physics, Harvard University
    Oral Statement...............................................    13
    Written Statement............................................    18
    Biography....................................................    19

Dr. Dennis Kovar, Associate Director for High Energy Physics, 
  Office of Science, U.S. Department of Energy
    Oral Statement...............................................    20
    Written Statement............................................    21
    Biography....................................................    26

Dr. Piermaria J. Oddone, Director, Fermilab National Accelerator 
  Laboratory
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    48

Dr. Hugh E. Montgomery, President, Jefferson Science Associates, 
  LLC; Director, Thomas Jefferson National Accelerator Facility
    Oral Statement...............................................    48
    Written Statement............................................    50
    Biography....................................................    53

Discussion
  Communicating With the Public..................................    54
  String Theory..................................................    56
  Next Generation Accelerators...................................    57
  International Cooperation......................................    57
  Dark Energy and Matter.........................................    58
  Realizing the Taxpayer Investment..............................    60
  International Collaboration and More on Next Generation 
    Accelerators.................................................    62
  More on Best Use of Taxpayer Money.............................    64

              Appendix: Additional Material for the Record

Letter to Chairman Brian Baird from Kenneth O. Olsen, President, 
  and Dr. John V. Dugan, Vice President, Superconducting Particle 
  Accelerator Forum of the Americas, dated Oct. 3, 2009..........    70

Industrialization of Advanced Accelerator Technology, by Kenneth 
  O. Olsen, Superconducting Particle Accelerator Forum of the 
  Americas Industry Working Group................................    71


      INVESTIGATING THE NATURE OF MATTER, ENERGY, SPACE, AND TIME

                              ----------                              


                       THURSDAY, OCTOBER 1, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 11:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Tonko 
[Vice Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      Investigating the Nature of

                    Matter, Energy, Space, and Time

                       thursday, october 1, 2009
                          11:00 a.m.-1:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, October 1, 2009 the House Committee on Science & 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``Investigating the Nature of Matter, Energy, Space, and 
Time.''
    The Subcommittee's hearing will receive testimony on the 
fundamental physics research activities of the Department of Energy 
(DOE) Office of Science conducted through the High Energy Physics (HEP) 
and Nuclear Physics (NP) programs. It will also examine how these areas 
are related to the work of other DOE program offices and other federal 
agencies.

Witnesses

        <bullet>  Dr. Lisa Randall is a Professor of Physics at Harvard 
        University. Dr. Randall will provide an overview of our current 
        level of understanding of matter, energy, and the origins of 
        the universe, as well as the major questions that remain.

        <bullet>  Dr. Dennis Kovar is Director of HEP, and the former 
        Director of NP. Dr. Kovar will testify on DOE's current 
        research activities and future plans in these areas, as well as 
        HEP and NP's roles in advancing accelerator research and 
        development for a variety of applications relevant to industry 
        and other federal agencies.

        <bullet>  Dr. Pier Oddone is Director of Fermi National 
        Accelerator Laboratory (Fermilab) in Batavia, Illinois. Dr. 
        Oddone will testify on his vision for Fermilab following the 
        expected shutdown of its primary research facility within the 
        next three years.

        <bullet>  Dr. Hugh Montgomery is Director of Thomas Jefferson 
        National Accelerator Facility (JLab) in Newport News, VA. Dr. 
        Montgomery will testify on the capabilities that JLab provides 
        to the U.S. and international nuclear physics communities, as 
        well as JLab's accelerator technology development and science 
        education activities.

Background

    On August 2, 1939, Albert Einstein wrote to then President Franklin 
Roosevelt. Einstein told him of efforts in Nazi Germany to purify 
uranium-235, which could be used to build an atomic bomb. It was 
shortly thereafter that the U.S. Government began the Manhattan 
Project, which expedited research to produce a viable nuclear weapon 
before the Germans. This endeavor assembled several of the most 
renowned physicists of the 20th century from all over the world, 
including Robert Oppenheimer, Niels Bohr, Enrico Fermi, and Edward 
Teller. After the end of World War II, many of these physicists 
remained in the U.S. and resumed research in the fundamental nature of 
matter, energy, space, and time, otherwise known as particle physics. 
The Department of Energy (DOE) and its predecessors have historically 
supported significant programs of research and education in particle 
physics from this point forward. Today, the DOE Office of Science's 
High Energy Physics (HEP) and Nuclear Physics (NP) programs explore 
this area of research at nine DOE national laboratories and over 100 
U.S. universities, employing approximately 4,000 scientists.

High Energy Physics

    High energy physics is a branch of physics that studies the 
fundamental building blocks of matter and energy, and the interactions 
between them. It is called ``high energy'' because many of these 
particles do not occur under normal circumstances in nature, but can be 
created and detected during energetic collisions of other particles, as 
is done in large research facilities known as particle accelerators. 
Modern particle physics research is focused on subatomic particles, 
which include atomic constituents such as electrons, protons, and 
neutrons (protons and neutrons are actually made up of fundamental 
particles called quarks), as well as a wide range of more exotic 
particles. Research in high energy physics has led to a deep 
understanding of the physical laws that govern matter, energy, space, 
and time. This understanding has been formulated in what is called the 
``Standard Model'' of particle physics, first established in the 1970s, 
which successfully describes nearly all observable behavior of 
particles and forces, often to very high precision. Nevertheless, the 
Standard Model is understood to be incomplete. The model fails at 
extremely high energies--energies just now being created in particle 
accelerators--and describes only a small fraction of the matter and 
energy filling the universe. Surprising new data reveal that only about 
five percent of the universe is made of the normal, visible matter 
described by the Standard Model. The remaining 95 percent of the 
universe consists of matter and energy whose fundamental nature remains 
a mystery.
    A world-wide program of particle physics research is underway to 
explore what lies beyond the Standard Model. To this end, HEP supports 
theoretical and experimental studies by individual investigators and 
large collaborative teams. Some of them gather and analyze data from 
accelerator facilities in the U.S. and around the world while others 
develop and deploy sensitive ground and space-based instruments to 
detect particles from space and observe astrophysical phenomena that 
advance our understanding of fundamental particle properties. Some of 
the key questions the HEP program addresses include:

Do all the forces we are familiar with really come from just one?

    All the basic forces found in the universe, such as gravity and 
electromagnetism, could be various manifestations of a single unified 
force. Unification was Einstein's great, unrealized dream, and recent 
advances in a branch of physics known as string theory give hope of 
achieving it. Most versions of string theory require at least seven 
extra dimensions of space beyond the three we are used to. The most 
advanced particle accelerators may find evidence for extra dimensions, 
requiring a completely new model for thinking about the structure of 
space and time.

How did the universe come to be?

    Prevailing measurements and theory describe the universe as 
beginning with a massive explosion known as the Big Bang, followed by a 
burst of expansion of space itself. The universe then expanded more 
slowly and cooled, which allowed the formation of stars, galaxies, and 
ultimately life. Understanding the very early formation of the universe 
will require a breakthrough in physics, which string theory may 
provide.

What is dark matter? How can we make it in the laboratory?

    Most of the matter in the universe is invisible to us, and we can 
detect its existence only through its gravitational interactions with 
normal matter. This ``dark matter,'' first identified in 1933, is 
expected to at least partly account for what appears to be missing 
matter in the universe, as evidenced by the calculated vs. the observed 
rotational speeds of galaxies. This matter is thought to consist of 
exotic particles that have survived since the Big Bang. Experiments are 
currently being carried out to try to directly detect these exotic 
particles in space as well as produce them in particle accelerators 
that briefly recreate similar conditions to the Big Bang.

And what is dark energy?

    The structure of the universe today is a result of two opposing 
forces: gravitational attraction and cosmic expansion. In 1998, it was 
discovered through cosmic observations that the universe has been 
expanding at an accelerating rate for approximately six billion years. 
The cause of this accelerating expansion which now appears to dominate 
over gravitational attraction has been labeled ``dark energy'' by 
scientists, though so little is known about it that even calling it a 
form of energy may be misleading. More and other types of data along 
with new theoretical ideas are necessary to make progress in 
understanding its fundamental nature.

What is the origin of mass?

    The only particle predicted by the Standard Model which has yet to 
be found experimentally is called the Higgs boson, which would be 
responsible for generating mass in other fundamental particles. The 
current generation of particle accelerators is expected to either 
confirm its existence or rule it out.

What happened to the antimatter?

    The universe appears to contain very little antimatter. Antimatter 
is made up of antiparticles, which have the same mass and opposite 
charge of their associated ``normal matter'' particles. For example, 
the antiparticle of the electron, which is negatively charged, is the 
positively charged antielectron, also called the positron. Antimatter 
is continually produced by naturally occurring nuclear reactions, but 
its existence is brief because it undergoes near immediate annihilation 
after coming into contact with its normal matter counterpart. The Big 
Bang, however, is expected to have produced equal amounts of both 
matter and antimatter. This is borne out by the study of high-energy 
collisions in the laboratory. Precise accelerator-based measurements 
may shed light on how the matter-antimatter asymmetry arose.

What are neutrinos telling us?

    Of all the known particles, neutrinos are perhaps the least 
understood and the most elusive. The three known varieties of neutrinos 
were all discovered by HEP researchers working at U.S. facilities. 
Trillions pass through the Earth every moment with little or no 
interaction. Their detection requires intense neutrino sources and 
large detectors. Their tiny masses may imply new physics and provide 
important clues to the unification of forces. Naturally occurring 
neutrinos are produced by cosmic ray interactions with the Earth's 
atmosphere, by supernovae, and in the interior of stars. These can be 
studied in space as well as on the ground using intense neutrino 
sources such as nuclear reactors and advanced accelerators.

HEP Budget and Subprograms

    HEP is divided into five subprograms that are organized around the 
tools and facilities they use and the knowledge and technology they 
develop. Details on current and proposed funding for HEP can be found 
in Table 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Proton Accelerator-Based Physics subprogram exploits two major 
applications of proton accelerators. Due to the high energy of the 
collisions at the Tevatron Collider (two trillion electronvolts, or 
TeV) at Fermilab in Batavia, IL and the Large Hadron Collider (14 TeV 
maximum) at CERN in Geneva, Switzerland, and the fact that particles 
interact differently at different energies, these facilities can be 
used to study a wide variety of scientific issues. (CERN, the world's 
largest particle physics laboratory, was formally a French acronym, but 
is now officially the European Organization for Nuclear Research. It is 
pronounced sern.) By colliding intense proton beams into fixed targets, 
proton accelerators are also capable of producing large samples of 
other particles which can be formed into beams for experiments. The 
U.S. high energy physics community has recently proposed a new project 
that would utilize the high-power proton beam at Fermilab to produce 
intense secondary beams of neutrinos for unique new experiments after 
the Tevatron shuts down within the next three years.

        <bullet>  The Large Hadron Collider (LHC) will be the world's 
        largest and highest-energy particle accelerator. DOE and the 
        National Science Foundation (NSF) invested a total of $531 
        million in the construction of the LHC and its detectors. This 
        U.S. contribution was delivered on budget and three months 
        ahead of schedule last year. DOE provided $200 million for the 
        construction of accelerator components, $250 million for the 
        design and construction of several major detectors, and 
        continues to support U.S. scientists' work on the detectors and 
        additional accelerator R&D. NSF has focused its $81 million of 
        support on funding university scientists who have contributed 
        to the design and construction of these detectors. The total 
        project cost of the LHC is expected to be approximately =3.7 
        billion, or $5.4 billion in today's U.S. dollars. More than 
        1,700 scientists, engineers, students and technicians from 94 
        U.S. universities and laboratories currently participate in the 
        LHC and its experiments.

           The LHC began facility test operations on September 10th, 
        2008. Nine days later, these operations were halted due to a 
        serious electrical fault. Taking into account the time required 
        to repair the resulting damage and to add additional safety 
        features, the LHC is currently scheduled to be operational 
        again in mid-November 2009. The U.S. contributions to LHC have 
        met all performance goals to date, and CERN is taking full 
        financial and managerial responsibility for this repair.

    The Electron Accelerator-Based Physics subprogram utilizes 
accelerators with high-intensity and ultra-precise electron beams to 
create and investigate matter at its most basic level. Since electrons 
are small, fundamental point-like particles (unlike protons, which are 
relatively heavy composites of quarks and force-carrying particles) 
they are well-suited to precision measurements of particle properties 
and precise beam control. The next generation of accelerator after the 
LHC is likely to be a high-energy electron facility that can probe LHC 
discoveries in detail.

    The Non-Accelerator Physics subprogram supports particle physics 
research best examined by utilizing ground-based telescopes and 
detectors typically in partnership with NSF, as well as space-based 
telescopes in partnership with NASA. Scientists in this subprogram 
investigate topics such as dark matter, dark energy, neutrino 
properties, and primordial antimatter. Some of the non-accelerator 
particle sources used in this research are cosmic rays, neutrinos from 
commercial nuclear power reactors, the Sun, and galactic supernovae.

        <bullet>  NSF has proposed to build the Deep Underground 
        Science and Engineering Laboratory (DUSEL) in Homestake Mine, 
        South Dakota, which closed its mining operations in 2002, and 
        DOE is currently considering becoming a significant partner in 
        this project. If completed, DUSEL would be the deepest 
        underground science facility in the world, 8,000 feet below 
        ground, which would enable unique experiments in neutrino 
        physics and dark matter, among other areas.

        <bullet>  A Joint Dark Energy Mission (JDEM) has been proposed 
        as a joint NASA-DOE partnership. JDEM would make precise 
        measurements of the expansion rate of the universe to 
        understand how this rate has changed with time. These 
        measurements are expected to yield important clues about the 
        nature of dark energy. JDEM has rated among the top recommended 
        projects in reports on high energy physics research needs by 
        the National Academies since 2003, as well as reports by the 
        National Science and Technology Council and the 
        Administration's High Energy Physics Advisory Panel (HEPAP). A 
        Memorandum of Understanding (MOU) between DOE and NASA on 
        advancing JDEM was issued in November 2008.

    The Theoretical Physics subprogram provides the vision and 
mathematical framework for understanding and extending the knowledge of 
high energy physics. This program supports activities that range from 
detailed calculations of the predictions of the Standard Model to 
advanced computation and simulations to solve otherwise intractable 
problems. Theoretical physicists play key roles in determining which 
experiments to perform and in explaining experimental results in terms 
of underlying theories that describe the interactions of matter, 
energy, space, and time.

    The Advanced Technology R&D subprogram develops the next generation 
of particle accelerator and detector technologies for the future 
advancement of high-energy physics as well as other sciences. It 
supports research in the physics of particle beams, fundamental 
advances in particle detection, and R&D on new technologies and 
research methods relevant to a broad range of scientific disciplines, 
including accelerator technologies that can be used to investigate 
materials for energy applications as well as biological processes for 
medical applications. HEP has been designated the lead program within 
the DOE Office of Science to develop a coordinated strategy for next 
generation accelerators that can meet the Nation's wide variety of 
basic and application-oriented research needs.

Nuclear Physics

    The mission of the DOE Office of Science's Nuclear Physics (NP) 
program is to discover, explore, and understand all forms of nuclear 
matter. Nuclear matter consists of any number of clustered protons and 
neutrons which makes up the core of an atom called its nucleus. The 
fundamental particles that compose nuclear matter are each relatively 
well understood, but exactly how they fit together and interact to 
create different types of matter in the universe is still largely not 
understood. To answer the many remaining questions in this field, NP 
supports experimental and theoretical research--along with the 
development and operation of specially designed particle accelerators 
and other advanced technologies--to create, detect, and describe the 
different forms of nuclear matter that can exist in the universe, 
including those that are no longer found naturally.
    Research has shown that protons, which are positively charged, and 
neutrons, which are electrically neutral, are bound in the nucleus by a 
fundamental force named the strong force because it is far stronger 
than either gravity or electromagnetism, although it operates on 
smaller distance scales. As scientists delved further into the 
properties of the proton and neutron, they discovered that each proton 
and neutron is composed of three tiny particles called quarks. Quarks 
are bound together by yet other particles called gluons, which are 
believed to be the generators of the strong force. One of the major 
goals of nuclear physics is to understand precisely how quarks and 
gluons bind together to create protons, neutrons, and other hadrons 
(the generic name for particles composed of quarks) and, in turn, to 
determine how all hadrons fit together to create nuclei and other types 
of matter.

NP Budget and Subprograms

    NP is organized into five subprograms. Details on current and 
proposed funding for each can be found in Table 2.
    The Medium Energy subprogram primarily utilizes two NP national 
facilities in addition to several other facilities worldwide to examine 
the behavior of quarks inside protons and neutrons. The Continuous 
Electron Beam Accelerator Facility (CEBAF) at the Thomas Jefferson 
National Accelerator Facility (JLab) in Newport News, VA provides high 
quality beams of electrons that allow scientists to extract information 
on the quark and gluon structure of nuclei. CEBAF also uses these 
electrons to make precision measurements of processes that can provide 
information on why the universe is primarily made up of matter rather 
than antimatter, which is relevant to HEP as described above. The 
Relativistic Heavy Ion Collider (RHIC) at Brookhaven National 
Laboratory (BNL) in Upton, NY provides colliding beams of protons to 
probe the proton's structure. This subprogram also supports one 
university Center of Excellence at MIT to develop advanced 
instrumentation and accelerator equipment.

    The Heavy Ion subprogram tries to recreate and characterize new and 
predicted forms of matter as well as other new phenomena that might 
occur in extremely hot, dense nuclear matter, conditions which may not 
have existed naturally since the Big Bang. Measurements are carried out 
primarily using very energetic heavy ion collisions at RHIC. 
Participation in the heavy ion program at the LHC also provides U.S. 
researchers the opportunity to search for new states of matter under 
substantially different conditions than those provided by RHIC, gaining 
additional information regarding the matter that existed during the 
infant universe.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Low Energy subprogram primarily utilizes two NP national user 
facilities to examine how protons and neutrons are bound into common 
and stable nuclei vs. rare and unstable nuclei. The Argonne Tandem 
Linac Accelerator System (ATLAS) at Argonne National Laboratory in 
Argonne, Illinois is used to study questions of nuclear structure by 
providing high-quality beams of all the stable elements up to uranium 
as well as selected beams of short-lived nuclei. These allow for 
experimental studies of nuclear properties under extreme conditions and 
reactions of interest to nuclear astrophysics. The Holifield 
Radioactive Ion Beam Facility at Oak Ridge National Laboratory provides 
beams of short-lived radioactive nuclei that scientists use to study 
exotic nuclei not normally found in nature. The future Facility for 
Rare Isotope Beams (FRIB), which Michigan State University has recently 
been selected to host, is a next-generation machine that will further 
advance the understanding of rare nuclei and the evolution of the 
cosmos. The subprogram also supports four university Centers of 
Excellence, three (at Duke University, Texas A&M University, and Yale 
University) with unique low energy accelerator facilities and one (at 
the University of Washington) with infrastructure capabilities for 
developing advanced instrumentation. The subprogram also partners with 
the Department of Defense's National Reconnaissance Office and the 
United States Air Force to support limited operations of a small 
facility at the Lawrence Berkeley National Laboratory that will help 
advance improvements in radiation hardness of electronic circuit 
components against damage caused due to cosmic rays.

    The Nuclear Theory subprogram provides the theoretical underpinning 
needed to support the interpretation of a wide range of data obtained 
from all the other NP subprograms and to advance new ideas and 
hypotheses that stimulate experimental investigations. This subprogram 
supports the Institute for Nuclear Theory at the University of 
Washington, where leading nuclear theorists are assembled from across 
the Nation to focus on frontier areas in nuclear physics. The 
subprogram also collects, evaluates, and disseminates nuclear physics 
data for basic nuclear research and for applied nuclear technologies 
with its support of the National Nuclear Data Center at BNL. These 
databases are an international resource consisting of carefully 
organized scientific information gathered from over 50 years of nuclear 
physics research worldwide.

    The Isotope Development and Production for Research and 
Applications subprogram supports the production and development of 
techniques to make isotopes that are in short supply for medical, 
national security, environmental, and other research applications. This 
subprogram is described in more detail in the Charter for the Committee 
on Science and Technology, Subcommittee on Energy and Environment 
hearing entitled ``Biological Research for Energy and Medical 
Applications at the Department of Energy Office of Science'' held on 
September 10th, 2009.
    Mr. Tonko. This hearing will come to order.
    Good morning. I am Paul Tonko, a Member of the 
Subcommittee. Chair Brian Baird is unfortunately unable to join 
us this morning because of circumstances beyond his control and 
so I will be chairing the first portion of the hearing, which 
will focus on Investigating the Nature of Matter, Energy, 
Space, and Time.
    Today's hearing will explore the Department of Energy (DOE) 
Office of Science's research activities in high energy and 
nuclear physics and their collaboration with related programs 
and projects carried out by the National Science Foundation and 
the National Aeronautics and Space Administration (NASA) as 
well as our international partners.
    In 1939, Albert Einstein sent a letter to President 
Franklin Roosevelt warning him of Germany's advances in 
creating an atomic bomb. This spurred the President to begin 
the Manhattan Project, which gathered many of the greatest 
physicists of the 20th century from all over the world to 
successfully beat the Germans in a race of scientific and 
technological progress. After the end of the war, many of these 
physicists remained in the United States to resume their 
research in the basic nature of matter, energy, space, and 
time, a field also known as particle physics. Our country has 
historically supported significant research programs in these 
areas from that point forward.
    Today, DOE alone has proposed a 2010 budget of over $1.3 
billion for particle physics research and related technology 
development, which would continue to support about 4,000 
scientists in over 100 universities and nine DOE national 
laboratories. In this hearing I hope to get a better 
understanding of what fundamental questions remain to be 
answered, and what the American taxpayers are receiving in 
return for this investment. This subcommittee certainly 
supports exploring fundamental areas of science with uncertain 
or even unknowable outcomes, but the level of that support 
should always be well justified.
    The Administration's High Energy Physics Advisory Panel 
made important progress in this direction with the release of 
its 10-year strategic plan, which set research and project 
priorities under a series of realistic budget scenarios. I look 
forward to learning more about whether and how this plan is 
being implemented.
    And with that I would like to thank this excellent panel of 
witnesses for appearing before the Subcommittee this morning.
    And I yield to our distinguished Ranking Member, Mr. 
Inglis, for his opening statement.
    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing. This subcommittee has held several 
hearings over the last few months examining the diverse mission 
of DOE's Office of Science. We have heard about their research 
efforts in energy vehicle technologies and biological sciences.
    Today we turn to perhaps the most fundamental research 
activities in all of science, investigating the building blocks 
of energy and matter. So we are here to learn at the Einstein 
level and I feel somewhat unprepared for class, I must tell 
you. I think I know this much, though: in the Manhattan 
Project, we found a way to harness the energy of atoms for 
weaponry of massive strength. Fifty years later we are 
searching for the most basic understanding of the nature of the 
universe. Out of this research we gain an understanding of 
electricity, communication technology, X-rays and other 
conveniences. We also delve into the fundamental nature of 
matter, energy, space and time, inspiring our insatiable human 
curiosity to answer large metaphysical questions about why and 
how.
    Current lines of investigation in this field are very 
exciting. We are simultaneously exploring the edges of the 
universe, matter we cannot directly observe and a particle that 
lends mass to everything around us. While this research will 
give us some interesting answers, it will certainly inspire 
many more questions, and that is what science is all about.
    I look forward to hearing from our distinguished panelists 
about this fascinating course of research. Thank you, Mr. 
Chairman, and I yield back the balance of my time.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good morning and thank you for holding this hearing, Mr. Chairman.
    This subcommittee has held several hearings over the last few 
months examining the diverse mission of DOE's Office of Science. We've 
heard about their research efforts in energy, vehicle technologies, and 
biological sciences. Today we turn to perhaps the most fundamental 
research activities in all of science: investigating the building 
blocks of energy and matter.
    So we're here to learn at the Einstein level and I feel somewhat 
unprepared for class.
    I think I know this much, though: In the Manhattan Project we found 
a way to harness the energy of atoms for weaponry of massive strength. 
Fifty years later, we're searching for the most basic understanding of 
the nature of the universe.
    Out of this research, we gain an understanding of electricity, 
communication technology, x-rays, and other conveniences. We also delve 
into the fundamental nature of matter, energy, space and time, 
inspiring our insatiable human curiosity to answer large metaphysical 
questions about ``why'' and ``how''.
    Current lines of investigation in this field are exciting. We're 
simultaneously exploring the edges of the universe, matter we cannot 
directly observe, and a particle that lends mass to everything around 
us. While this research will give us some interesting answers, it will 
certainly inspire many more questions. And that's what science is all 
about.
    I look forward to hearing from our distinguished panelists about 
this fascinating course of research. Thank you again, Mr. Chairman, and 
I yield back the balance of my time.

    Mr. Tonko. Thank you, Mr. Inglis.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Today's hearing will explore the DOE Office of Science's research 
activities in high energy and nuclear physics, and their collaboration 
with related programs and projects carried out by the National Science 
Foundation and NASA--as well as our international partners.
    In 1939, Albert Einstein sent a letter to FDR warning him of 
Germany's advances in creating an atomic bomb. This spurred the 
President to begin the Manhattan Project, which gathered many of the 
greatest physicists of the 20th century from all over the world to 
successfully beat the Germans in a race of scientific and technological 
progress. After the end of the war, many of these physicists remained 
in the U.S. to resume their research in the basic nature of matter, 
energy, space, and time, a field also known as particle physics. Our 
country has historically supported significant research programs in 
these areas from this point forward.
    Today, DOE alone has proposed a 2010 budget of over $1.3 billion 
for particle physics research and related technology development, which 
would continue to support about 4,000 scientists in over 100 
universities and nine DOE national laboratories. In this hearing I hope 
to get a better understanding of what fundamental questions remain to 
be answered, and what the American taxpayers are receiving in return 
for this investment. This Subcommittee certainly supports exploring 
fundamental areas of science with uncertain or even unknowable 
outcomes, but the level of that support should always be well-
justified. The Administration's High Energy Physics Advisory Panel made 
important progress in this direction with the release of its 10-year 
strategic plan, which set research and project priorities under a 
series of realistic budget scenarios. I look forward to learning more 
about whether and how this plan is being implemented.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. Thank you, Mr. Chairman, for holding today's hearing 
to receive testimony on the High Energy Physics (HEP) and Nuclear 
Physics (NP) research conducted through the Department of Energy (DOE) 
Office of Science.
    This subcommittee has held several hearings to discuss the research 
activities of the Office of Science, and I appreciate the opportunity 
to hear from our witnesses today about current HEP and NP research 
opportunities. In recent years, this research has uncovered new forms 
of matter, and we now understand that our Standard Model of particles 
and matter covers only five percent of the actual building blocks of 
the universe.
    For several decades, the U.S. was the world leader in HEP and NP 
research. However, since the decision to delay the construction of the 
International Linear Collider, several key research centers and labs 
have shut down and become obsolete. At the same time, Europe and Japan 
have continued to make major investments in constructing new 
laboratories and developing new techniques for exploring particle 
physics. With the construction of the Large Hadron Collider in Geneva, 
European investment in HEP and NP is 150 percent higher than U.S. 
investment. I would like to hear from the DOE what plans, if any, are 
in place to revive HEP and NP research in the U.S. Further, how 
Congress and this subcommittee can support efforts to return the U.S. 
to its position of leadership.
    Finally, I am pleased to welcome Dr. Pier Oddone, Director of 
Fermilab in Batavia, IL. Dr. Oddone and his colleagues are at the 
forefront of particle physics, and I applaud their work. Fermilab's 
Tevatron is the second-largest particle accelerator in the world, and 
in 1995 Fermilab scientists were the first to discover the top quark. I 
was pleased to learn of Fermilab's receipt of $103 million in funding 
from the American Recovery and Reinvestment Act of 2009. I would like 
to hear from Dr. Oddone how Fermilab will use these funds to further 
its research efforts.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman. Welcome to the panelists, who are here 
this morning to testify at a subcommittee hearing entitled 
``Investigating the Nature of Matter, Energy, Space, and Time.''
    It is valuable for Subcommittee Members to be informed of the 
physics research activities of the Department of Energy (DOE) Office of 
Science.
    Today, we will specifically hear about research conducted through 
the High Energy Physics (HEP) and Nuclear Physics (NP) programs.
    Texas has a large contingency of universities whose research is 
supported by these programs. The institutions include:

        <bullet>  Baylor University

        <bullet>  Prairie View A&M

        <bullet>  Rice University

        <bullet>  Southern Methodist University

        <bullet>  Texas A&M

        <bullet>  Texas Tech. University

        <bullet>  University of Texas at Arlington

        <bullet>  University of Texas at Austin

        <bullet>  University of Texas at Dallas

    I am proud that Texas takes advantage of competitive research grant 
funding through the Department of Energy (DOE) Office of Science.
    The work of particle physics research employs approximately 4,000 
American scientists. It is done both by individual investigators and 
large collaborative teams. Its foundation was laid by the likes of 
Albert Einstein, Robert Oppenheimer, Niels Bohr, Enrico Fermi, and 
others. The research helps us understand the beginning, composition, 
and organization of the universe.
    Particle physics research has yielded so many public benefits, such 
as cancer therapies. We have better diagnostic machines, more 
sophisticated tools for national security, and more efficient 
superconducting materials. We have improved drug development and better 
understand global weather patterns.
    The World Wide Web was developed to give particle physicists a tool 
to communicate quickly and effectively with globally dispersed 
colleagues around the Nation. The study of particle physics helps us to 
understand matter's most basic forces and how they interact with one 
another.
    Yes, much of the research may be hard to understand or translate 
into real life. When we ask only for translational research or real-
life linkages, we can stifle the creative thought process. As Dr. 
Randall stated in her testimony, America is a land of opportunities for 
creative, intelligent people. It is a place that invests in abstract, 
basic research to enable creative thinkers to do their work, 
unfettered. We attract people like Dr. Piermaria Oddone, who dreamed as 
a child in Peru to be a part of the amazing discoveries occurring in 
the United States. To continue to bring the world's talent to our 
doorstep, we must provide opportunities to attract them.
    Instruments to study particle physics include the Large Hadron 
Collider, which cost about $5.4 billion in today's U.S. dollars and 
involves more than 1,700 scientists, engineers, students and 
technicians. It is disappointing that, nine days after commencing 
operations, the Collider experienced a serious electrical fault. 
However, the level of investment in this research should deliver the 
clear message that Congress sees great value in particle physics 
research.
    The scientific community believes that, once in operation, the 
Collider will help us understand more about what gives the most 
elementary particles their mass. Dr. Oddone points out that education 
in science, technology, engineering, and math is impacted by particle 
physics research. Indeed it is.
    Discoveries spark the imaginations of young people, who dream of 
studying the origins of stars, the planets, and how mass and energy 
relate. Those bright minds are our innovators of tomorrow. We must 
reach out to them and somehow show them that this research is 
occurring, and that it is valuable to them. Particularly for 
disadvantaged students, we must show them that a career in nuclear 
physics research is attainable. There is so little ethnic diversity in 
the research workforce in this area of science. I would like to 
challenge each of you to work at your laboratories and universities to 
do the important outreach that is required for these students to see 
the opportunities.
    Again, I am grateful that distinguished scientists who are also 
good communicators have come here today to share the state of our 
understanding in this area.
    Welcome. Thank you, Mr. Chairman. I yield back the remainder of my 
time.

    Mr. Tonko. I now will introduce the panel. It is my 
pleasure to introduce who will be our first witness, Dr. Lisa 
Randall, who is a Professor of Physics at Harvard University. 
We welcome Dr. Randall, as do we Dr. Dennis Kovar, who is the 
Director of the Office of High Energy Physics and former 
Director of the Office of Nuclear Physics at DOE, and I believe 
our colleague, Representative Lipinski, would like to introduce 
our next panelist.
    Mr. Lipinski. Thank you, Chairman Tonko.
    It is my pleasure to welcome Dr. Pier Oddone, the Director 
of Fermi National Accelerator Laboratory in Illinois. Fermilab 
is the largest accelerator in the United States, and under Dr. 
Oddone's leadership it has been a vital tool in advancing our 
understanding of the universe. Dr. Oddone's distinguished 
career has been four decades, taking him from MIT to Princeton 
to California, where he served as the Deputy Director of the 
Lawrence Berkeley National Laboratory and was a leading 
researcher at Stanford's Linear Accelerator Center, or SLAC. As 
a Stanford alumni, I would like to move from Berkeley to 
Stanford. He is most celebrated for inventing a new kind of 
particle accelerator, the Asymmetric B Factory, to help us 
understand why there isn't more antimatter in the universe. 
Thank you, Dr. Oddone, for being here and I look forward to his 
testimony.
    Mr. Tonko. And again, welcome, Dr. Oddone. And finally, we 
have Dr. Hugh Montgomery, who is Director of Thomas Jefferson 
National Accelerator Facility, the JLab, in Newport News, 
Virginia. As we begin hearing from our witnesses, might I just 
make a point of information available. We have just been 
solicited to vote for what will be a series of three votes. I 
am told that Dr. Randall's testimony is slightly longer than 
her fellow witnesses, so what I think may work best here is to 
hear the testimony of Dr. Randall and then allow for us to go 
vote and then resume the hearing if you can bear with us, 
please. It seems to be life in Washington. I am learning as I 
go. So with that, please, Dr. Randall.

 STATEMENT OF DR. LISA RANDALL, PROFESSOR OF PHYSICS, HARVARD 
                           UNIVERSITY

    Dr. Randall. Thank you for having us here today. This is 
kind of amusing. It is a little bit like class on the first day 
when everyone is sitting in the back here afraid to hear about 
the physics.
    But what we are going to tell you today, what we would like 
to tell you is the kind of questions we are exploring today. We 
are exploring the universe at larger and smaller scales than 
ever before, and that is really important because that is the 
way we find out new things. We get away from what we experience 
in our everyday life. We go to these extremes of distances and 
energy, which is why we have these extreme experiments that are 
set up. Astrophysical probes let us see out into the universe 
whereas particle physics experiments currently at Fermilab, and 
hopefully soon LSC, we are going to look at smaller distances 
and higher energies than we ever have before. And what we will 
try to convince you very briefly is that we could be at the 
verge of revolutionary discoveries.
    And I just thought I would say a couple of words and I am 
not going to read all this, but the questions are abstract, and 
we heard about the Manhattan Project in the introductory 
remarks. We hear about applications. I think it is always very 
important to keep in mind that when these fundamental 
discoveries are made, no one has ever predicted what their 
applications would be yet they have revolutionized the 
universe, and I think there are so many people out there who 
just want to know the answers to these questions. That is one 
of the reasons we are here. It is one of the reasons we are a 
leader but it is also what gives us leadership at universities. 
It is one of the reasons we have the best universities, the 
smartest people here that go on to do physics and other things. 
So I think we don't want to get too focused when we ask what is 
the application of any particular project because in the end 
the results seem to have worked out pretty well.
    Our goals as particle physicists are to understand matter's 
most basic elements and the forces through which they interact. 
You all probably know about the atom but we are going inside 
the atom. We are going inside the atom to explore what is 
inside the nucleus. What is inside the nucleus seems to be 
particles called quarks, pulled together through forces called 
the strong nuclear force which is communicated through 
particles called gluons. But in addition to those particles we 
know about that are there in all matter we have seen, there 
seems to be heavier quarks. We know that there are heavier 
quarks. We don't know their purpose. We don't know why they 
have the masses that they have. We know of four fundamental 
forces. We don't know what the relationships among them are or 
should be. And these are the kinds of questions we are trying 
to answer. We really are on the verge of getting some insight 
into questions about mass and fundamental particles very soon.
    We would also like, of course, not just to have a list of 
particles. The list isn't that extensive but we want to really 
understand the connections. We want to understand what is the 
underlying theoretical framework which connects them all, 
because that gives us some deep understanding of what is 
fundamentally out there. We are not just trying to enumerate 
particles, we are trying to really see what is the fundamental 
description? How does this work? That fundamental description 
might be connected to something as exotic as string theory, 
which is based on the idea that rather than particles, we have 
fundamental oscillating strings. It could give us a deeper 
understanding of space-time. This is quite remarkable but it 
could be that understanding space better could actually explain 
properties of fundamental particles. Particles could be 
separated within a context of even extra dimensions in space, 
and if I have a moment I will mention that possibility.
    Really, trying to answer these questions has led us to some 
very exotic scenarios, but they are not just out there as crazy 
ideas. Really, it is following through. It is not just 
metaphysics. It really is trying to follow through, what are 
the consequences of what we have seen? And what are the ways 
within the context of theories we do understand that we can 
actually solve these questions?
    We also are working on connections to cosmology particle 
physics. Of course, we know what is out there. We know how the 
universe has evolved. Knowing how the universe has evolved 
tells us about fundamental particles, and that has given rise 
to some very interesting connections to, for example, dark 
matter studies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is probably hard to see but basically this is just 
stating that there are some pretty big questions out there in 
cosmology; primarily, what is out there in the universe? What 
constitutes the 25 percent of matter that we haven't seen yet? 
What constitutes the 70 percent of the energy that seems to out 
there that we don't yet understand?
    One of the questions that we really do hope to address--

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

--this looks more complicated than I intended but one of the 
questions that we want to address now is the question of what 
is the origin of the mass scale that we know about. We know 
right now, right now experiments are exploring something called 
the weak energy scale. It is a particular energy scale. It is 
about 100 to 1,000 times the mass of a proton when we relate 
energy and mass through E = mc<SUP>2</SUP>, and at that energy 
scale we really will answer some of the questions we have had 
as particle physicists for the last 30 years or so--questions 
like, why do particles have mass? Why do fundamental particles 
have mass? Questions like, why is that mass scale what it is? 
And the interesting thing is that quantum mechanics and special 
relativity tell us that the mass scale just doesn't make sense 
unless there is something else very interesting happening at 
that energy scale. That is to say, we expect to find some 
indications of some new underlying physics that could be as 
exotic as extensions of symmetries of space and time, extension 
of space itself. It is almost inevitably going to be something 
profound.
    I am sure that my fellow panelists will talk more about 
this, but it is really a particularly interesting time because 
the Large Hadron Collider is about to turn on and really we do 
hope to see some answers to this question. And this is just to 
stay that it could be that it could discover evidence, it could 
just discover new particles, it could discover--you have 
probably heard of what is called the Higgs particle, but it 
could discover particles that even travel in extra dimensions. 
We really do have reasons to believe that there is very 
interesting new physics that is really right around the corner 
if we can explore these higher energy scales. And just to give 
a simple example, it could be that when we collide together 
protons we make this new particle that travels in extra 
dimensions. What is so interesting is that these particles, 
even though they are involved in extra dimensions--and I know I 
haven't told you what extra dimensions are, but it is the idea 
that we have dimensions beyond the three we see. But it could 
be that even though those particles are there, they still can 
decay back into our universe so that we can see them in these 
elaborate detectors that have been built that I am not going to 
have time to tell you about but I am sure my fellow panelists 
will.
    It seems I have actually stuck to time, which is kind of 
amazing, mostly because I am from New York and talk really 
fast. But we really do have a new world view at this point. 
That is to say, we are about to embark on investigation of 
scales of which we are fairly confident we should be able to 
find out what is happening, and what is so interesting is that 
that same energy scale could be connected to the dark matter of 
the universe for reasons I don't have time to explain but feel 
free to ask. And it could be connected to the scales that will 
be explored with gravity wave detectors. It is very 
interesting. The scale has appeared in several different 
contexts. There are many new results in theoretical physics. 
There are intriguing possibilities for our universe. We have 
seen how the theories can connect together the ideas, but it is 
very important for us to really have the experiments to tell us 
which are the right directions. These are all very nice ideas, 
at least we think so, but we would like to know which are 
really out there in the universe. We are not just doing 
abstract mathematics. We really want to know what is it. And 
any of these discoveries would be things that would make us 
really change fundamentally our view of what the universe is 
made of.
    Some of the most exciting physics that we know should have 
answers is involved at this weak scale that we are exploring. 
There are many questions at many energy scales but we are at 
the cusp of exploring an energy scale which we know is 
interesting, and as I said, it is also involved in dark matter 
experiments. So this is wonderful overlap of experimental 
cosmology and theoretical developments and this could be a 
revolutionary discovery. How can we choose not to explore?
    So I am just going to close with my favorite picture, which 
shows that there could be a lot more out there in the universe. 
An amusing fact was when I put this picture in I didn't realize 
it was the Chateau de Sion, the painting that is there, which 
is right near CERN. Thank you.
    [The prepared statement of Dr. Randall follows:]

                   Prepared Statement of Lisa Randall

    It's an exciting time for physics. We are currently exploring the 
universe at larger and smaller scales than ever before. Astrophysical 
probes let us see out into the Universe at the largest observable 
scales. Particle experiments set to investigate the fundamental nature 
of matter smaller distances and higher energies than ever before.
    Admittedly, the questions we ask can be very abstract in their 
detailed formulation--so much so that people sometimes question the 
merit of our enterprise, which doesn't have the obvious and immediate 
impact of other more applied or more people-oriented research. But at 
the root of what we explore are questions as basic as what are the 
fundamental building blocks of matter? What is out there in the 
universe that we cannot yet see? And how did the universe evolve into 
its current state? The ability to ask--and to answer these questions--
and to formulate them precisely enough that we know answers should 
exists--is what makes people, and up to this point Americans, special.
    Some of the very features that make the field so esoteric and so 
challenging are also what makes it critical as a way of maintaining 
leadership in scientific, technical, and creative fields. If you want 
to attract the best people to do the most creative things, challenges 
are vital. We've maintained the best universities and had the most 
innovative companies for the last half century for a reason.
    So what are the questions we ask and what will it take to answer 
them? We want to understand matter's most basic elements and the forces 
through which they interact. We'd like to connect observed particles, 
interactions, and phenomena to underlying theoretical frameworks. That 
might be string theory, which posits fundamental underlying vibrating 
strings at the heart of all matter. Or these studies might yield a 
deeper understanding of space time. Are the three dimensions of space 
that we see all there are? Or are there dimensions to the universe that 
are different and so far completely hidden from view? It could be that 
there are parallel universes less than a centimeter away that we have 
not yet seen. It would be revolutionary to discover that the Universe 
is so much richer than we have so far observed.
    We want to connect what we learn about fundamental particles to how 
the universe has evolved. And we'd like to understand the implications 
of cosmological observations for particle physics. Can we understanding 
the origin of the universe and structures that we see?
    The chief particle physics questions today center around the origin 
of the masses of fundamental particles and why they are at the scale we 
have observed them to be. This is no small questions since quantum 
mechanics and special relativity tell us that it is extremely unlikely 
without something very interesting going on to maintain the hierarchy 
of mass scales that is necessary to develop interesting physical 
theories--and the world as we know it. Without what we call ``fine-
tuning'' of parameters--or something new and profound--it seems that 
masses would be nothing like what we have seen. We want to understand 
both where mass comes from and what protects the mass scale.
    That latter question has led to explorations as profound and 
admittedly speculative as the search for additional dimensions of 
space. It could be that space time is distorted in a way that keeps 
gravity weak and masses as they should be.
    And most remarkably we should soon be able to test these ideas. The 
Large Hadron Collider, the giant machine colliding together two beams 
of protons at seven times higher energy than has yet been achieved on 
Earth, should be able to explore what physical theory accounts for the 
phenomena we have observed. For example, when protons collide they can 
turn into energy, and that energy (through E = mc<SUP>2</SUP>) can turn 
into particles that travel in the extra dimensions. Those particles 
might escape, or they might decay into the detectors which are 
specially designed to identify these decay products and piece together 
what was originally there.
    By studying the energy scales that the LHC will explore, we might 
also understand what accounts for dark matter, the matter in the 
universe whose gravitational effects we observe but which don't emit or 
absorb light. In addition to the LHC, this is an interesting 
experimental era for the study of cosmology and dark matter in 
particular. Many particle theorists currently explore the cosmological 
implications of physical theories that might underlie the Standard 
Model. Dark matter will be tested directly, in experiments on Earth 
where the small probability that dark matter will interact is enhanced 
by providing big vats of target material. Dark matter will also be 
tested through the possibility that dark matter particles can 
annihilate with each other and give rise to photons or antiparticles 
that we can measure astronomically.
    Our job as theorists is to understand experimental implications and 
suggest what might be present so that we won't miss it when it is 
produced in the laboratory or in space. Experiments are complicated and 
the many subtle ways to find what lies beyond the Standard Model 
challenges us all to rise to the occasion.
    There are many new ideas and results in theoretical physics that 
follow from our better understanding of the implications of Einstein's 
theory of gravity and our particle physics models. There are intriguing 
possibilities to explore and test, both with theory and experiments. 
Many of these ideas center on the scales that the LHC will explore. 
These ideas--ones as exotic as extra dimensions or as relatively 
straightforward as the so-called Higgs mechanism for generating msas--
could soon be tested. Given that we are at the cusp of this new 
understanding of the nature of the universe, how can we choose not to 
explore?

                       Biography for Lisa Randall

    Lisa Randall is Professor of Theoretical Physics and Studies 
Particle Physics and Cosmology. Her research concerns elementary 
particles and fundamental forces and has involved the development and 
study of a wide variety of models, the most recent involving extra 
dimensions of space. She has made advances in understanding and testing 
the Standard Model of particle physics, supersymmetry, models of extra 
dimensions, resolutions to the hierarchy problem concerning the 
weakness of gravity and experimental tests of these ideas, cosmology of 
extra dimensions, baryogenesis, cosmological inflation, and dark 
matter. Professor Randall earned her Ph.D. from Harvard University and 
held professorships at MIT and Princeton University before returning to 
Harvard in 2001. She is a member of the National Academy of Sciences, 
the American Academy of Arts and Sciences, a fellow of the American 
Physical Society, and is a past winner of an Alfred P. Sloan Foundation 
Research Fellowship, a National Science Foundation Young Investigator 
Award, a DOE Outstanding Junior Investigator Award, and the 
Westinghouse Science Talent Search. In 2003, she received the Premio 
Caterina Tomassoni e Felice Pietro Chisesi Award, from the University 
of Rome, La Sapienza. In autumn, 2004, she was the most cited 
theoretical physicist of the previous five years. In 2006, she received 
the Klopsted Award from the American Society of Physics Teachers 
(AAPT). In 2007, she received the Julius Lilienfeld Prize from the 
American Physical Society for her work on elementary particle physics 
and cosmology and for communicating this work to the public. Professor 
Randall's book, Warped Passages: Unraveling the Mysteries of the 
Universe's Hidden Dimensions, was included in the New York Times' 100 
notable books of 2005.
    In 2008, Prof. Randall was among Esquire Magazine's ``75 Most 
Influential People of the 21st Century''. Randall was included in Time 
Magazine's ``100 Most Influential People'' of 2007 and was one of 40 
people featured in The Rolling Stone 40th Anniversary issue that year. 
Prof. Randall was featured in Newsweek's ``Who's Next in 2006'' as 
``one of the most promising theoretical physicists of her generation'' 
and in Seed Magazine's ``2005 Year in Science Icons''.

    Mr. Tonko. Thank you very much, Dr. Randall, and very 
interesting testimony and thank you for the sidebar compliment 
regarding New Yorkers. We appreciate that.
    We are now going to recess for about 20 minutes, and Dr. 
Kovar, we will resume with you leading off with your testimony. 
That allows us then to cast our three votes and return. So we 
can recess for 20 minutes.
    [Recess.]
    Mr. Lipinski. [Presiding] I call the hearing back to order. 
We heard--before the votes we heard the testimony of Dr. 
Randall, so I hope we won't be interrupted again by votes but 
it is possible we will be, but right now we will move on to Dr. 
Kovar. So Dr. Kovar, you are recognized.

  STATEMENT OF DR. DENNIS KOVAR, ASSOCIATE DIRECTOR FOR HIGH 
  ENERGY PHYSICS, OFFICE OF SCIENCE, U.S. DEPARTMENT OF ENERGY

    Dr. Kovar. Mr. Chairman, Ranking Member Inglis and Members 
of the Committee, thank you very much for the opportunity to 
testify on the High Energy and Nuclear Physics Program at the 
Department of Energy at the Office of Science. I am Dennis 
Kovar. I served as Director of the Nuclear Physics Program for 
nine years and since October 2007 I have been serving as 
Director of the Office of High Energy Physics. I am very 
pleased to be here today to share with you my perspectives on 
these programs.
    The scientific fields of high energy and nuclear physics 
emerged in the first half of the 20th century as physicists 
began to study the fundamental constituents of matter and their 
interaction. In the 1950s because of the great activity and the 
interest in these areas, the Department of Energy's predecessor 
agency, the Atomic Energy Commission, established research 
programs in these scientific fields. These research programs 
are now in the Department of Energy's Office of Science. Their 
mission is to deliver discovery science. They do this by 
nurturing, developing and supporting the research capabilities 
needed to position the United States at the scientific 
frontiers of these fields, to make significant discoveries and 
advance our knowledge. High energy physics, or particle 
physics, focuses on discovering and characterizing the 
fundamental building blocks of matter, while nuclear physics 
focuses on understanding how these fundamental building blocks 
combine to give rise to matter as observed in nature and the 
laboratory. Over the last half century the Department of Energy 
programs have delivered outstanding discovery science. The 
United States has emerged as a global leader in the major 
scientific success of both fields. The results have been 
impressive. Twenty-six Nobel Prizes awarded in high energy and 
nuclear physics over the past 58 years went to physicists in 
the United States, supported primarily by DOE. These programs 
have over this period had an enormous impact on society through 
the new knowledge and technologies that emerged from their 
research. These have enabled applications in industry, 
computing, medicine and pharmaceuticals, national security and 
other scientific fields. Both programs have now developed 
strategic plans for maintaining the U.S. leadership roles and 
participating in major discoveries in these scientific fields 
in the future. These plans have been developed with the input 
of their respective federal advisory committees and the broad 
national and international scientific communities. They have 
been formulated to address the most promising scientific 
opportunities in a manner that will complement and enhance 
international efforts so as to optimize the science that will 
emerge globally.
    The Department of Energy's High Energy Physics and Nuclear 
Physics Programs also have important stewardship components 
that serve the Department and national needs beyond the scope 
of research. For the High Energy Physics Program, it is 
fundamental and long-term accelerator science relevant to next-
generation accelerators, and for nuclear physics, it is isotope 
development and production. U.S. scientific leadership and the 
associated benefits to the Nation are realized through 
sustained federal support and by federal investments in 
scientific infrastructure and research facilities. Our 
understanding of the laws of nature and the physical universe 
have been profoundly altered by these discoveries made at U.S. 
facilities by U.S. scientists. These discoveries reveal new 
behaviors that raise new questions and in some cases totally 
unexpected questions. These questions inspire curiosity and 
wonder. They inspire ingenuity, pride and innovation and 
motivate discovery. The resulting advances in technology and 
knowledge serve both science and society.
    That concludes my testimony. Thank you, Mr. Chairman, for 
providing this opportunity to discuss high energy physics 
research programs and our plans for the future. I would be 
pleased to answer any questions you might have. Thank you.
    [The prepared statement of Dr. Kovar follows:]

                   Prepared Statement of Dennis Kovar

    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee for the opportunity to appear before you to provide testimony 
on the High Energy Physics and Nuclear Physics programs in the 
Department of Energy's (DOE's) Office of Science (SC). I served as 
Director of the Nuclear Physics program for nine years, from 1998 to 
October 2007, and I have been Director of the Office of High Energy 
Physics since October 2007. I am pleased to be here today to share with 
you my perspectives on these programs.

Introduction

    The fields of high energy physics (also known as particle physics) 
and nuclear physics, seek to understand and explain the physical world 
all around us--from the sub-atomic to the astronomical. Particle 
physics focuses on discovering and characterizing the fundamental 
building blocks of matter. Nuclear physics focuses on understanding how 
these fundamental building blocks combine to give rise to matter as 
observed in nature and in the laboratory.
    Both fields address questions that seem intractable: What is the 
origin of mass? What do the stars tell us about the fate of the 
Universe? Can we discover and create novel forms of matter? What if an 
understanding of the fundamental building blocks of matter at the 
smallest scales is not enough to explain the character of the atomic 
nucleus, the elements, or materials? Later in this testimony, I hope to 
explain how experiments with neutrinos, fundamental particles 
associated with some forms of nuclear decay, aim to reveal missing 
components of a theoretical model that could explain why most particles 
have mass while others do not. I will describe astronomical 
measurements that could answer some of our questions about dark 
energy--a form of energy hypothesized to account for anomalous 
observations about the rate of expansion and ultimate fate of the 
Universe. I will explain how particle colliders exploit the duality of 
mass and energy to produce, detect, and ultimately characterize novel 
particles of matter. I will also mention how ongoing studies of Quantum 
Chromodynamics (QCD) are helping to explain why some composite, but 
still sub-atomic, particles are more than the sum of their fundamental 
particle constituents.
    These questions inspire curiosity and wonder. Among the skilled 
scientists engaged in high energy and nuclear physics research, they 
also inspire ingenuity and motivate discovery. The resulting advances 
in technology and knowledge serve both science and society. For 
example, the desire for a deeper understanding of the fundamental 
constituents of matter has revealed a hierarchy of matter's building 
blocks: protons and neutrons bind together to form the atomic nucleus; 
quarks, in turn, are the components of protons and neutrons. Along the 
way, discoveries were made about radioactive decay--a process exploited 
by, for example, medical imaging technologies--and nuclear fission. 
Many of these discoveries were made possible by purpose-built research 
facilities supported by DOE--for example, particle accelerators. In 
many cases, breakthroughs in technology and design in these facilities 
have led to advances in diverse areas, such as light sources for 
materials research and tools for homeland security.
    In this testimony, I describe the current frontiers for both high 
energy physics research and nuclear physics research and describe how 
the research programs of the Office of Science contribute to scientific 
advances in these areas. I also discuss each program's relationship to 
U.S. and international partners and the anticipated benefits of 
continued U.S. leadership, including benefits to science and to the 
Nation. To begin, however, I would like to describe the origins and 
scientific breadth of the programs.

The Origins of the High Energy and Nuclear Physics Programs

    The scientific study of high energy physics and nuclear physics 
emerged in the first half of the 20th century as physicists began to 
study the fundamental constituents of matter and their interactions. 
This began in 1909 with a famous experiment by physicist Ernest 
Rutherford. The experiment involved firing a beam of helium ions at a 
thin sheet of gold foil and measuring how the ions scattered. The 
scattering pattern suggested that each atom has at its center a small, 
dense, positively charged core, which Rutherford named the nucleus. 
Over the next decades physicists learned that all matter on Earth is 
built of subatomic particles, now known as electrons, protons, and 
neutrons.
    Following the invention of particle accelerators, the second half 
of the 20th century witnessed a rapid progression of new discoveries. 
Accelerators enable physicists to propel charged particles to high 
speeds, focus them into beams, and collide them with stationary targets 
or other beams. The products of the collisions of common particles of 
matter enable the observation of their constituent subatomic particles 
and new short-lived particles. These collisions can convert matter into 
energy as described by Albert Einstein's equation, E = mc<SUP>2</SUP>. 
With these experiments physicists discovered that protons and neutrons 
from the atomic nucleus are composed of more fundamental particles 
known as quarks. The quarks and electrons that constitute everyday 
matter belong to families of particles that include other, much rarer 
particles. They also learned that particles interact through just four 
forces: gravity, electromagnetism, and two less familiar forces known 
as the strong force and weak force.
    In the 1950s, the Department of Energy's predecessor agency, The 
Atomic Energy Commission, established research programs supporting high 
energy and nuclear physics to take advantage of the scientific 
opportunities identified by early atomic science and made possible by 
technology and accelerator-based research. Over the last half century 
these programs delivered outstanding discovery science, and the United 
States emerged as a global leader in the major scientific thrusts of 
both fields. U.S. leadership was made possible by sustained support for 
researchers at both universities and national laboratories and by 
federal investment in scientific infrastructure for new or upgraded 
accelerator facilities. These facilities positioned the U.S. to do 
experiments at the scientific frontier. Our understanding of the laws 
of nature and the physical universe was profoundly altered by the 
discoveries made at these facilities by our scientists. These 
discoveries revealed behaviors that sparked new, and in some cases, 
totally unexpected questions.
    The increase in the energy of particle accelerator beams enabled 
particle physicists to discover the creation of many new unexpected 
short-lived particles. A theoretical framework known as the Standard 
Model was developed to describe and predict the behavior of these 
particles with extremely high levels of precision. The Standard Model 
is currently the best theory for explaining the relationship between 
matter and the fundamental forces that govern particle interactions. 
The development and precise testing of the Standard Model rank among 
the crowning achievements of 20th century science.
    DOE-supported physicists have played leading roles in the 
development of the theoretical foundations and in many of the major 
experimental discoveries in particle physics. For example, all six 
quarks and three of the six elementary particles known as leptons were 
discovered at DOE accelerator laboratories. DOE-supported physicists 
also played leading roles in the theoretical development of the Nuclear 
Shell Model, Nuclear Collective Model, and the models for stellar 
burning and nucleosynthesis--the process of creating new atomic nuclei 
from preexisting neutrons and protons--all of which form the 
foundations of nuclear physics today. DOE laboratories and experiments 
played major roles in verifying these nuclear physics models. Twenty of 
the 26 Nobel Prizes awarded in high energy and nuclear physics over the 
past 58 years were to physicists in the United States supported 
primarily by DOE.

The DOE High Energy and Nuclear Physics Programs

    Like other programs in the Office of Science, the Office of High 
Energy Physics (HEP) and the Office of Nuclear Physics (NP) have two 
signature components to their respective programs. First, both programs 
support a robust portfolio of fundamental research at universities and 
national laboratories strategically structured to serve the DOE mission 
in discovery science. This includes the development of advanced 
accelerator and detector technology that is important to the 
advancement of their fields and relevant to other scientific 
disciplines and applications. Second, both programs support the design, 
construction, and operation of world-class scientific user facilities 
that position the U.S. at the scientific frontiers of high energy and 
nuclear physics. The HEP and NP programs also have important 
stewardship components that serve DOE and national needs beyond the 
scope of high energy or nuclear physics research. For HEP, it is 
fundamental and long-term accelerator science relevant to next-
generation accelerators, and, for NP, it is the national isotope 
development and production program.
    Both programs have developed strategic plans with the input of 
their respective Federal Advisory Committees and the broad national and 
international scientific communities.
    The HEP program supports a range of research and scientific tools 
focused on three interrelated scientific frontiers:

        <bullet>  The Energy Frontier, where powerful accelerators are 
        used to create new particles, reveal their interactions, and 
        investigate fundamental forces.

        <bullet>  The Intensity Frontier, where intense particle beams 
        and highly sensitive detectors are used to pursue alternative 
        pathways to investigate fundamental forces and particle 
        interactions by studying events that occur rarely in nature.

        <bullet>  The Cosmic Frontier, where ground-based and space-
        based experiments and telescopes are used to make measurements 
        that will offer new insight and information about the nature of 
        dark matter and dark energy to understand fundamental particle 
        properties and discover new phenomena.

    The NP program has come to focus on three broad yet interrelated 
scientific frontiers:

        <bullet>  The Quantum Chromodynamics (QCD) Frontier, where 
        predictions are sought for the properties of strongly 
        interacting matter, and questions about what governs the 
        transition of quarks and gluons into pions and nucleons\1\ are 
        asked.
---------------------------------------------------------------------------
    \1\ Pions are the lightest mesons, which are composed of one quark 
and one antiquark. The term nucleon refers to either a neutron or a 
proton, as both can be found in the atomic nucleus.

        <bullet>  The Nuclei and Nuclear Astrophysics Frontier, which 
        focuses on understanding how protons and neutrons (themselves 
        combinations of quarks and gluons) combine to form atomic 
        nuclei and how those nuclei have arisen during the 13.7 billion 
---------------------------------------------------------------------------
        years since the birth of the cosmos.

        <bullet>  The Fundamental Symmetries and Neutrinos Frontier, 
        which focuses on developing a better understanding of the 
        neutron and the neutrino--the nearly undetectable fundamental 
        particle produced by the weak interaction that was first 
        detected in nuclear beta decay--providing evidence for physics 
        beyond the Standard Model.

    The study of neutrinos features in both the Intensity Frontier of 
the HEP program and the Fundamental Symmetries Frontier of NP. These 
endeavors are complementary and coordinated with distinct motivations. 
The HEP program seeks to exploit the role that neutrinos play in the 
Standard Model to better understand the origins of mass and the forces 
affecting matter. The NP program seeks to better understand the nature 
of the neutrino in terms of its mass, whether it has a distinct 
antiparticle, and the role that neutrinos play in the processes and 
forces affecting atomic nuclei.
    The strategic plans for the HEP and NP programs also consider 
investments made by other U.S. federal agencies and international 
research organizations, recognizing that large accelerator and detector 
experiments have become costly and can take many years to implement. 
The HEP and NP programs engage in several efforts to coordinate and 
collaborate with high energy physics and nuclear physics programs 
around the world to maximize scientific opportunities and maintain 
leadership in key scientific thrusts.
    In particular, both HEP and NP work closely with the National 
Science Foundation (NSF) in many partnerships. These working 
relationships and partnerships are greatly facilitated by the fact that 
the HEP and NP Federal Advisory Committees are jointly chartered by DOE 
and NSF. HEP has also partners with the NSF and the National 
Aeronautics and Space Administration (NASA) Astrophysics program on 
ground-based and space-based observatories. NP has working 
relationships with NASA, the U.S. Air Force, National Reconnaissance 
Office (NRO), and U.S. Navy for utilization of particle beams and 
infrastructure at NP facilities.

Scientific Facilities and International Collaborations

    Historically, the HEP and NP programs have pursued the development 
of large, one-of-a-kind particle accelerator facilities, which are 
utilized by large international scientific collaborations. The most 
prevalent model for collaborating on international facilities, a model 
that has evolved over the past few decades, involves the host country 
or host region building and operating a new facility that provides 
particle beams for experimentation, and the host collaborating with 
other countries around the world to build and operate the detectors 
that use these beams. During the period that one forefront facility 
operates, other new next-generation facilities or upgrades are being 
planned for construction and operation in the next decades. This 
provides a balance of world-class facilities in diverse geographical 
regions. If the cost of a new facility is too expensive for a single 
country or region, there is typically a reexamination of the 
international collaboration. In this regard the ongoing 12 GeV Upgrade 
for the Continuous Electron Beam Accelerator Facility (CEBAF), the 
planned Facility for Rare Isotope Beams (FRIB), and the proposed 
upgrade of Fermilab's accelerator capabilities for a world-class 
Intensity Frontier program are all elements of the international 
scientific programs in nuclear and high energy physics.
    There are several strategic requirements of HEP and NP science due 
to the long timescales and the international nature of these 
collaborations--consensus needs to be reached by the national and 
international partners on what will be done; long-term commitments need 
to be made and honored; and the work must be ``projectized'' and 
managed internationally.

Future of the HEP Program

    In HEP's strategic plan, the next years will see a transition from 
currently operating facilities (Tevatron Collider and Main Injector at 
Fermilab) to intensive R&D, design, and construction of new research 
capabilities. A balance among research, facility operations, and 
construction for future opportunities will be maintained. The plan 
enhances and develops a U.S. leadership role in the three main 
scientific thrusts of particle physics: the Energy Frontier, currently 
explored by the Tevatron and the Large Hadron Collider (LHC), with a 
teraelectron volt (TeV) lepton collider envisioned as the next-
generation discovery tool; the Intensity Frontier, encompassing high-
power proton- and electron-based accelerators used for neutrino physics 
and studies of very rare processes that give unique insights into the 
unification of forces; and the Cosmic Frontier, which embodies a wide 
range of studies using non-accelerator-based techniques and ultra-
sensitive particle detectors.
    Long-range plans for each frontier revolve around the scientific 
questions addressed by major new facilities:

The Energy Frontier: At the Energy Frontier, there is a strong case for 
operating the Tevatron Collider program through FY 2011 to compete for 
scientific discoveries with the LHC during this period. Possible 
scientific deliverables over the next five-year period are discoveries 
of the Higgs boson and supersymmetric particles. LHC suffered technical 
problems in commissioning, but is now scheduled to start operations 
late in 2009. HEP support for LHC detector operations, maintenance, 
computing, and R&D is necessary to maintain a U.S. role in these 
experiments. The HEP plan allows for U.S. participation in the LHC 
accelerator and detector upgrades. Details of the scope of U.S. 
involvement in these upgrades are currently under consideration.

The Intensity Frontier: At the Intensity Frontier, the Neutrinos at the 
Main Injector (NuMI) Off-Axis Neutrino Appearance (NOnA) project at 
Fermilab is planned to begin operations with a partially completed 
detector in 2013. The NuMI beamline will operate in its current 
configuration through FY 2011 for the Main Injector Neutrino 
Oscillation Search (MINOS) and MINERnA, and will undertake a year-long 
shutdown in FY 2012 to upgrade the beam power for the NOnA experiment. 
The future direction of the intensity frontier involves further 
upgrades to the Fermilab proton beam power, construction of high 
intensity beamlines for neutrino and rare decay experiments, and the 
fabrication of detectors capable of utilizing these intense beams to 
make significant discoveries.
    The upgraded intense proton beam would enable searches for 
extremely rare decays that can probe for new physics well beyond the 
Energy Frontier, such as muon to electron conversion, and a new 
dedicated beamline and experiment to explore this science. A new 
neutrino beamline together with a large underground detector located at 
a large distance from Fermilab would provide capabilities for a next 
generation of neutrino oscillation measurements. Over a ten-year 
period, we expect some realignment of professional skills at Fermilab 
as the laboratory transitions from the operations-dominated Tevatron 
program to the construction-dominated neutrino and rare decay program. 
Significant results from NOnA, MINERnA, and other precision 
measurements will emerge over the next decade, keeping the U.S. at the 
forefront of these studies, even as the infrastructure needed for a 
world-leading program in neutrino studies will have been put into 
place. This, along with rare decay searches, will provide Fermilab with 
a robust, continuous program of world-leading physics in the decade 
after the end of the Tevatron Collider program.

The Cosmic Frontier: DOE is partnering with the NASA and NSF in the 
fabrication of forefront ground-based and space-based particle 
astrophysics observatories for exploration of the Cosmic Frontier. HEP 
will collaborate with NSF on a staged program of research and 
technology development designed to directly detect dark matter 
particles using ultra-sensitive detectors located underground. These 
detectors will eventually push current limits on direct detection of 
dark matter down by a factor of 1000. HEP anticipates working with NASA 
on a Joint Dark Energy Mission (JDEM) and with NSF on possible ground-
based dark energy measurements. These projects for direct detection of 
dark matter and ground- and space-based observatories focused on dark 
energy are planned to begin fabrication in the out-year timeframe and 
to begin operations in the latter part of the next decade which will 
allow the United States to maintain scientific leadership at the Cosmic 
Frontier.

Future of the NP Program

    The United States is today a world leader at the Quantum 
Chromodynamics scientific frontier because of the federal investments 
made in the last decade in CEBAF and RHIC (Relativistic Heavy Ion 
Collider). The NP program is among the world leaders in the frontier of 
Nuclei and Nuclear Astrophysics, with efforts focused at ATLAS and the 
HRIBF (Holifield Radioactive Ion Beams Facility) and three university 
accelerator facilities. In addition, participation in forefront 
neutrino experiments has made the U.S. among the world leaders in the 
third frontier of nuclear science, Fundamental Symmetries and 
Neutrinos. Each of these frontiers is bolstered by a strong community 
of nuclear theorists.
    The strategic plan of the NP program over the next five years is to 
support university and laboratory scientists and engineers, operate 
existing facilities, invest in research capabilities to maintain 
leadership in the program's scientific thrusts, and produce research 
and commercial isotopes important for the Nation. The NP program is 
designed to deliver significant discoveries and advances in nuclear 
science and to produce the knowledge, advanced detectors, and 
accelerator technologies needed to participate in a broad range of 
scientific and technical applications. The Nuclear Science Advisory 
Committee's (NSAC) long range plan points toward the mid- and longer-
term priorities to accomplish the NP scientific program, recommending 
investments that will enable compelling research and assure U.S. 
leadership in nuclear science.
    The priority investment for the Medium Energy subprogram is the 
completion of the 12 GeV CEBAF Upgrade project, which will double the 
energy of the CEBAF electron beam. The project includes construction of 
a new experimental hall to exploit the added capability and upgrades to 
current detectors and instrumentation. This major CEBAF Upgrade will 
provide the opportunity for new discoveries and a more complete 
understanding of the mechanism of quark confinement--one of the puzzles 
of modern physics. This project will position CEBAF to remain the 
international center for these studies for the next decade.
    The focus of the Heavy Ion subprogram will be on implementing a 
second generation of experiments at RHIC with higher beam luminosity 
and greater detector sensitivities to fully characterize and understand 
the recently discovered new states of matter. A complementary effort 
will be pursued with the heavy ion program at the LHC, which will 
enable U.S. participation in studies of hot, dense nuclear matter in a 
higher energy regime. This community will be working with the medium 
energy community to develop the scientific case and technical 
feasibility for a possible future electron-ion collider.
    Within the Low Energy subprogram the Nuclear Science Advisory 
Committee recommends construction of the next generation Facility for 
Rare Isotope Beams (FRIB) to advance the frontier of nuclei and nuclear 
astrophysics. The Low Energy subprogram is currently conducting R&D and 
conceptual design for FRIB. When it begins operations in about a 
decade, FRIB will provide a world-leading capability to explore the 
structure of the rarest of nuclei and address the nuclear reactions 
that power stars and stellar explosions. In the interim, the NP program 
is making investments in research capabilities that will allow U.S. 
researchers to participate in forefront rare isotope beam studies 
around the world in preparation for the FRIB program.
    The NP program also supports U.S. participation in international 
neutrino experiments that use nuclear physics techniques. These 
experiments are focused on neutrino-less double beta decay studies to 
determine whether neutrinos are their own antiparticle and to provide 
information on the neutrino's mass. Ongoing efforts in this area 
include the Italian-led CUORE (Cryogenic Underground Observatory for 
Rare Events) project and the Majorana Demonstrator R&D project to 
determine the feasibility of a full scale Majorana experiment.

Concluding Remarks

    Thank you, Mr. Chairman, for providing this opportunity to discuss 
the High Energy Physics and the Nuclear Physics research programs at 
the Department of Energy. This concludes my testimony, and I would be 
pleased to answer any questions you may have.

                       Biography for Dennis Kovar

    Dr. Dennis Kovar has been serving as the Associate Director of 
Science for High Energy Physics since October 15, 2007. He served as 
the Associate Director of Science for Nuclear Physics (NP) from July 
2003 until assuming his present responsibilities. In 2007 he also 
served as a co-Acting Deputy Director of the Office of Science. Dr. 
Kovar obtained his B.S. in Physics from the University of Texas in 1964 
and his Ph.D. in Nuclear Physics from Yale University in 1971. He held 
a postdoctoral appointment at Lawrence Berkeley National Laboratory 
before joining the scientific staff at Argonne National Laboratory 
(ANL) in 1973.
    He came to the Department of Energy from ANL in 1990 and served as 
Program Manager for Heavy Ion Nuclear Physics (1990-1998), Project 
Officer for RHIC (1996-1999) and Director of the Division of Nuclear 
Physics (1998-2003), prior to becoming the Associate Director of 
Science for Nuclear Physics. As an experimental nuclear physicist, he 
produced over 90 refereed articles, primarily in the area of low energy 
heavy ion nuclear reactions, nuclear structure and particle detection 
techniques and instrumentation. He is a fellow of the American Physical 
Society and the American Association for the Advancement of Science. 
Dr. Kovar was honored with the Presidential Rank Award for Meritorious 
Service in 2005 and the Presidential Rank Award for Distinguished 
Service in 2008.

    Mr. Lipinski. Thank you, Dr. Kovar.
    The Chair will now recognize Dr. Oddone.

   STATEMENT OF DR. PIERMARIA J. ODDONE, DIRECTOR, FERMILAB 
                NATIONAL ACCELERATOR LABORATORY

    Dr. Oddone. Thank you for inviting me to be a witness at 
this hearing.
    Before I emphasize some of the points in my written 
testimony, I would like to start with a personal note. I grew 
up in Peru, far away from any ability to do any of this kind of 
research. In the 1950s the United States was the beacon for 
this type of research. Wonderful discoveries were being made. 
The frontier was being expanded. And I decided as a teenager I 
wanted to be a physicist and I went to my parents and I told 
them so. This was a very strange notion for them, and I must 
say they had the wisdom and probably the intestinal fortitude 
to actually send a 17-year-old on his own to the United States 
to study physics. And so I am here after five decades, 
participating, witnessing and contributing to the tremendous 
opportunities that have been made possible by the federal 
research in this basic field of science and I hope that you in 
the future will continue to support this as your predecessors 
have done.
    Let me emphasize some points. The first one, as Lisa said, 
physics has never been as exciting as it is right now. We are 
closing in on the Higgs with both the Tevatron and soon with 
the Large Hadron Collider (LHC). We may discover supersymmetry 
that would pair each particle that we know about with another 
one with different properties of angular momentum but would, 
more importantly, expand our notion of space-time and how we 
see space-time and relativity. Physicists would be terribly 
disappointed if nature had not used this symmetry. It is so 
wonderful. By God, it should be used in nature. We are with 
neutrinos studying this very elusive particle with 
accelerators, with nuclear reactors, using neutrinos from the 
atmosphere, and these neutrinos may in fact explain why the 
world is made out of matter and not just a soup of photons that 
comes through the annihilation of matter and antimatter in 
equal parts.
    When we study the cosmos, we have been able to tie the 
world of the very small and the very large in a way that the 
big structures in the universe we understand as the subatomic 
fluctuations at the very beginning of the universe. And further 
we study the cosmos and we realize that everything that we knew 
about it is about five percent of what is there. Dark energy 
and dark matter dominate the content of the universe.
    The United States has been a leader in this field through 
its existence and that is the second point I want to emphasize, 
but that leadership is now in danger. The field has become 
global. We use facilities everywhere where we can do the 
physics. Europeans have come and used Fermilab for the last 10 
years when they were building the Large Hadron Collider. We 
have 1,500 physicists working at the LHC now from the United 
States, and this balance of facilities and this world use of 
facilities that is so powerful in advancing the field depends 
on the balanced investment in the various regions. That has 
become at this point unbalanced and that is where the threat 
comes from. We have closed most facilities and in five years we 
will close the Tevatron in the United States, whereas other 
regions have built facilities that now give them an advantage 
in how they approach this field. Well, it is a problem, but it 
is a problem that has a solution.
    The advisory panel through its Physics Project 
Prioritization Panel, or P5, has put together a powerful plan 
at the three frontiers, the three thrusts of particle physics: 
the energy frontier where we try to study the very small with 
the highest energy machines, the intensity frontier on which 
Fermilab will now concentrate that depends for its progress on 
producing the greatest numbers of particles. There we will 
study neutrinos, very rare processes, and the keystone of that 
program is a new facility at Fermilab which we call, for the 
moment, Project X. It would be the most intense facility in the 
world, giving a beam of neutrinos to the DUSEL Laboratory 
funded by the NSF at the Homestake Mine in South Dakota. And 
the program as it is presently designed also opens the 
possibility for the return to the energy frontier that is now 
dominated by the Large Hadron Collider in Europe by developing 
accelerators and the technologies necessary, to make progress 
after the LHC.
    Let me conclude. Maintaining leadership in this fundamental 
field is essential. It is essential because it asks the most 
fundamental questions. It is hard to imagine leadership in 
science for a country without really attacking these questions. 
It develops new technologies as it expands and moves the 
frontiers of the world as we know it. We are always pushing the 
envelopes of technology and this has led to computational and 
communication technologies. The Web is an example. The particle 
accelerators that we have developed are used in medicine, in 
industry, for modifying materials in homeland defense and 
security and so are the detectors that are very complex and 
that we have developed. Finally, it contributes to the 
education of a technical workforce both directly through 
international involvement--every major physics department is 
involved in particle physics--but also because it attracts 
young people to science. Those kinds of questions really, like 
it did for me, attract young people to science. They may do 
many things as they develop their interests, and people who 
enter this career are prepared to work in large disciplinary 
teams and make advances cooperatively across the world in this 
complex global environment. The United States must remain a 
beacon of science and a leader in particle research if it is 
going to derive the benefits in education in technological 
advances and in science in general. Thank you very much.
    [The prepared statement of Dr. Oddone follows:]

               Prepared Statement of Piermaria J. Oddone

              The State of Particle Physics in Our Nation

    Today I will describe the state of my field of research, high-
energy particle physics. Before examining the major questions in 
particle physics, I would like to start with a personal note. I was 
born in Peru and grew up far away from any possibilities of doing this 
kind of research. In high school, reading about the amazing discoveries 
and pace of research in nuclear physics and beyond, I was attracted to 
physics and proposed to my parents that I become a physicist. This was, 
for them, a very strange notion. The beacon for the world in this kind 
of research at the time was the United States. My parents had the 
wisdom to ship me to the U.S. to study physics at MIT. Today I am 
honored to come before you after nearly five decades of witnessing, 
participating in and benefiting from the fantastic research 
opportunities in our country that have been made possible by federal 
support of discovery science in particle physics.
    Particle physics has never been more exciting. Experiments at the 
Tevatron collider at Fermilab and soon at the Large Hadron Collider at 
the European particle physics laboratory CERN are closing in on the 
elusive particle--the Higgs boson--that we believe endows elementary 
particles with their mass. But in addition we may find something even 
more astonishing: that for every particle known today, a new and 
previously unseen twin exists, heavier and spinning in a different way. 
This discovery would herald a new understanding of space-time and the 
Theory of Relativity. Furthermore, several generations of experiments 
using accelerators, reactors, the sun and cosmic rays are advancing our 
understanding of neutrinos, elusive particles that, together with their 
heavy counterparts yet to be discovered, may be responsible for the 
matter in our universe.
    In the last five decades we have moved from a complete lack of 
understanding of the bewildering variety of newly discovered particles 
to a remarkable understanding of how all of these hundreds of particles 
fit together in a simple and beautiful framework. This modestly named 
``Standard Model'' has produced a transformation of how we think of the 
universe: how it began and our place within it. This remarkable 
intellectual achievement is the result of a powerful interplay between 
theorists and the experimental physicists and engineers that have built 
some of the most technologically advanced facilities ever created. The 
Standard Model has only four fundamental forces and only a few 
elementary constituents, namely, six quarks and six leptons. At the 
same time that we have made discoveries that confirm this simple 
conceptual paradigm, we are discovering a growing number of profound 
mysteries that cannot be resolved within it. One can say that our 
progress has been as great in expanding what we know as in expanding 
our awareness of a vast landscape we know nothing about.
    As we have advanced in our understanding of particle physics, we 
have discovered the deep connection between the world of the very small 
that we study with accelerators and the world of the very large that we 
observe in the cosmos. The largest objects in the universe, galaxies 
and cluster of galaxies, originated in the subatomic quantum 
fluctuations in the earliest moments of the universe. Many of the 
mysteries that confront us, such as the discovery of dark matter and 
dark energy as primary components of our universe, or the nature of 
neutrinos and their transformations, cannot be explained within our 
current understanding of particles and forces, and yet such 
explanations must exist. This tension between what we have observed and 
what we can explain is driving theorists to develop many alternative 
frameworks to account for these phenomena. A great expansion of our 
experimental horizons will soon take place with the start of the Large 
Hadron Collider (LHC) in Geneva, Switzerland. The LHC promises an 
extraordinarily exciting and productive period in the world of science 
as these theories confront experimental reality and we make new 
discoveries, perhaps beyond anything so far imagined.
    The extreme technical demands of particle physics experiments lead 
to inventions of unanticipated utility. Many innovations have come out 
of the development of accelerators, fast computational techniques, data 
mining and processing and particle detector technologies as described 
more extensively in Appendix 3. These innovations benefit society and 
the economy, such as

         1)  nuclear medicine and the use of isotopes for treatment and 
        for metabolic studies;

         2)  the use of accelerators in proton and neutron cancer 
        therapies;

         3)  the development of light sources and neutron sources to 
        advance many fields of science, including materials science, 
        atomic and molecular science, chemical sciences, nanosciences 
        and biosciences;

         4)  industrial accelerators to sterilize food, modify 
        materials, or inspect components;

         5)  radiation detectors used in scanning applications for 
        medical diagnosis;

         6)  radiation detectors for national security and other 
        detection purposes;

         7)  development of advanced computer technology, spurred by 
        early application of computers for particle physics data-
        taking, pattern recognition and analysis on a massive scale;

         8)  new massive computer architectures, inspired by the 
        boundless needs for computational power for quantum 
        chromodynamics calculations;

         9)  advance of the greatest distributed computing systems in 
        the world, grid computing, launched by the need for 
        computational resources to mine and model data;

        10)  perhaps the best known example of an application of 
        particle physics technology, the creation of the World Wide Web 
        at CERN, the European particle physics laboratory. Impelled by 
        the need for communications across continents on many different 
        platforms, U.S. particle physics laboratories quickly 
        followed--and so did the world;

        11)  Future applications of accelerator technologies: safer 
        sub-critical nuclear reactors, transmutation of nuclear waste; 
        bench top accelerators for material, chemical and biological 
        research.

    Research in particle physics plays an important role in science, 
technology, engineering and mathematics (STEM) education. Making 
discoveries about the world around us has excited humankind for 
centuries. The real possibility of understanding matter, energy, space 
and the evolution and fate of the universe generates excitement around 
the globe; it is a strong driver of scientific exploration, and it 
attracts young people to science. For those who choose to pursue 
particle physics, our discipline prepares students not only for careers 
in particle physics but for any career in which large, 
multidisciplinary teams tackle complex scientific and technological 
problems. Federal support of particle physics research has trained 
thousands of scientists. At my institution, Fermilab, alone, more than 
1,700 young scientists have received their Ph.D.s in the last three 
decades.
    The field has become progressively more international, demanding 
new forms of cooperation between the world agencies that support 
science. As more countries have invested in particle physics research 
the scientific collaborations to build accelerators and large detector 
facilities can typically involve dozens of countries and more than a 
hundred institutions. Coordination on a global scale is now common and 
will become more so in the future. The U.S. position in this global 
context of scientific cooperation and diplomacy is changing. We have 
been very much at the leading edge, attracting large investment from 
global partners to the U.S. For example, the groups operating the CDF 
and DZERO detectors in the Tevatron, Fermilab's proton-antiproton 
particle collider, each have hundreds of physicists. About 40 percent 
of these physicists hail from dozens of countries beyond our shores, 
bringing their resources and knowledge to the U.S. Similarly, nearly 
half of the support for BaBar, the detector in the Asymmetric B-Factory 
at SLAC, came from Europe. In a reversal of flow, today nearly 1,500 
physicists from the U.S. participate in LHC experiments in Europe, 
roughly 25 percent of all users of that facility.
    The free international sharing of facilities that has characterized 
our field has long been dependent on a balance of investments by 
various countries and regions over time, primarily by Europe and the 
U.S. but also with significant investments by Japan and China. Today, 
however, there is a growing imbalance that should raise grave concern. 
While the U.S. has either been the leader in particle physics research 
or shared leadership with Europe, that leadership is about to pass 
wholly to Europe with the start-up of the LHC. Europe's annual 
investment in particle physics is at least twice as large as that in 
the U.S. The capital value of their facilities will exceed that of the 
U.S. by an order of magnitude when the Tevatron shuts down. Nearly all 
major U.S. facilities, the Asymmetric B-Factory at SLAC, the Tevatron 
at Fermilab, the CESR collider at Cornell and the AGS at Brookhaven 
have either been shut down for particle physics research or will be 
shut down within two years. The last upgrade to a particle physics 
accelerator facility in the U.S. was the construction of the Main 
Injector at Fermilab, completed ten years ago, in 1999. It will be the 
one remaining facility devoted to particle physics in the U.S. once the 
Tevatron shuts down, and it will have strong competition from an 
advanced new facility starting in Japan at JPARC.
    The future for discovery science in particle physics in the U.S. 
will depend critically on following a clear scientific roadmap that 
establishes pioneering research facilities to replace our aging 
facilities. Last year the High Energy Physics Advisory Committee, or 
HEPAP, developed a comprehensive plan for the field. This plan can be 
funded within the resources anticipated for the Office of Science 
during the next decade. It contains a set of balanced investments in 
the three great lines of inquiry of particle physics, all of them 
driving toward a unified understanding of nature:

        1)  The Energy Frontier, where we directly produce new 
        particles and explore new phenomena;

        2)  The Intensity Frontier, where neutrinos and rare particle 
        processes tell us indirectly about new phenomena at energies 
        even beyond the LHC; and

        3)  The Cosmic Frontier, where we study natural phenomena 
        arising from the early universe that ultimately will connect to 
        our understanding of particles and forces.

    The executive summary of this HEPAP plan ``U.S. Particle Physics: 
Scientific Opportunities'' is included in this testimony as Appendix 2. 
Support for the HEPAP plan at the three frontiers is essential for a 
vigorous world-leading program in particle physics. And a vigorous and 
healthy program in this fundamental field of science is essential for 
us as a nation to derive the practical benefits that come from pushing 
the boundaries of science and technology, to provide a beacon for 
scientists and students from the U.S. and the world and to continue as 
the leader in discovery science.
        
        
        
        
        
        

Appendix 1

    The Major Questions in Particle Physics

Appendix 2

    ``U.S. Particle Physics: Scientific Opportunities''

    Chapter 1: Executive Summary

Appendix 3

    ``U.S. Particle Physics: Scientific Opportunities''

    Chapter 2: LParticle Physics in the National and 
International Context

        2.1 LLong-Term Value of Research in Fundamental 
        Sciences

        2.2 LBenefits to Society

        2.3 LThe International Context

Appendix 1

                The Major Questions in Particle Physics

    The Standard Model Framework has transformed the way we look at the 
world around us. It encompasses the forces and particles that we are 
familiar with, from nuclei to atoms to chemistry to biology. We used to 
think this was what the world is made of. Today, we know better: it is 
only some five percent of the matter and energy in the universe. The 
vast majority of the universe is dark matter and dark energy, still 
totally mysterious and detected only through their gravitational 
effects on the cosmos. Observations in space, deep underground and, 
most powerfully, in experiments at particle accelerators will 
ultimately reveal the particles and forces that underlie dark matter 
and dark energy.
    Profound question such as these arise when we confront the Standard 
Model with observations of the universe around us and fail to find an 
answer within it. It is clearly an incomplete framework that must be 
radically expanded to bring a unified understanding of nature.
    Some of the questions that arise when we confront the Standard 
Model with cosmological observations are:

        <bullet>  What is the nature of dark matter? Is it a simple 
        particle or a complex set of particles and interactions?

        <bullet>  What is the nature of dark energy?

        <bullet>  Why is the universe we see made out of matter and not 
        equal parts of matter and anti-matter as the Standard Model 
        would have it? Do neutrinos provide the answer?

        <bullet>  What new forces acted at the Big Bang to produce the 
        distribution of matter we see today?

        <bullet>  How will the universe evolve and what is its end-
        point?

    Other profound questions arise when we join the Standard Model with 
gravitation:

        <bullet>  Do all forces unify in a single framework?

        <bullet>  Are there extra dimensions of space?

        <bullet>  Are there hidden sectors not yet observed because 
        they are too massive or because they interact weakly with our 
        world?

    Further questions arise from the Standard Model itself:

        <bullet>  What mechanism endows elementary particles, those 
        without any internal structure, with mass?

        <bullet>  Does the Higgs particle that theoretically endows 
        elementary particles with mass actually exist?

        <bullet>  What is the nature of neutrinos and what do their 
        tiny masses and transformations tell us?

        <bullet>  Do heavy neutrinos exist in the early universe and 
        explain how matter came to dominate?

        <bullet>  Why are there three families of similar elementary 
        particles and not some other number: two or four or more?

        <bullet>  Why is there such a vast difference in the masses of 
        the quarks, a factor greater than 10,000, from the quarks that 
        make up the proton to the top quark?

        <bullet>  Why are the neutrino masses so light, a million times 
        smaller than the electron mass?

    These questions sound almost theological. It is a feature of the 
remarkable age of experimentation and discovery we live in that we can 
expect to answer many of them in the next few decades.
    Further Reading:

        1)  National Academy of Sciences Report `` Connecting Quarks to 
        the Cosmos: Eleven Science Questions for the New Century'', 
        (http://www.nap.edu/openbook.php?isbn=0309074061)

        2)  National Academy of Sciences Report `` Revealing the Hidden 
        Nature of Space and Time: Charting a Course for Elementary 
        Particle Physics'' (http://www.nap.edu/catalog/11641.html)

Appendix 2

                  A U.S. Roadmap for Particle Physics

    The field is currently progressing along the roadmap of the 
Particle Physics Project Prioritization Panel whose May, 2008 report 
was recommended by the High Energy Advisory Committee and serves as a 
guide: ``US Particle Physics Opportunities: A Strategic Plan for the 
Next Ten Years'' (http://www.er.doe.gov/hep/files/pdfs/P5--
Report%2006022008.pdf). The Panel was convened at the request of the 
DOE and the NSF to produce a realistic plan for particle physics under 
several budget scenarios. This plan proposes to develop the three 
frontiers of particle physics in a balanced way and has replaced the 
previous DOE strategy that was aimed at hosting the International 
Linear Collider early in the next decade. The reason for the changed 
strategy was the large cost estimate for the International Linear 
Collider and the absence of new information on the required energy 
scale--something that only research at the LHC will provide. The cost 
estimate for the International Linear Collider was developed rigorously 
by the world particle physics community and it allowed our policy-
makers to determine that such a plan could not be realized any time 
soon and that a new strategy was required for the health of the field 
in the U.S.
    One important aspect of this plan is the need for cooperation in 
major projects across government agencies. The planned Joint Dark 
Energy Mission requires a strong partnership between the DOE and NASA. 
The development of the world-leading neutrino program in the U.S. with 
a new beam from Fermilab aimed at the Deep Underground Science and 
Engineering Laboratory at the Homestake mine, South Dakota, 1,300 km 
away, requires a strong partnership between the DOE and the NSF. While 
partnerships between NASA and DOE have been successful in the past such 
as in the case of the Fermi satellite, and partnerships between the DOE 
and NSF have been successful such as in the case of LHC, these new 
projects are much larger and will demand even closer collaboration.
    In the section below I reproduce in its entirety the Executive 
Summary of the Particle Physics Project Prioritization Panel: ``U.S. 
Particle Physics Opportunities: A Strategic Plan for the Next Ten 
Years''.

1. EXECUTIVE SUMMARY

    Particle physics is a central component of the physical sciences, 
focused on the fundamental nature of matter and energy, and of space 
and time. Discoveries in this field, often called high-energy physics, 
will change our basic understanding of nature. The Standard Model of 
particle physics provides a remarkably accurate description of 
elementary particles and their interactions. However, experiment and 
observation strongly point to a deeper and more fundamental theory that 
breakthroughs in the coming decade will begin to reveal.
    To address the central questions in particle physics, researchers 
use a range of tools and techniques at three interrelated frontiers:

        <bullet>  The Energy Frontier, using high-energy colliders to 
        discover new particles and directly probe the architecture of 
        the fundamental forces.

        <bullet>  The Intensity Frontier, using intense particle beams 
        to uncover properties of neutrinos and observe rare processes 
        that will tell us about new physics beyond the Standard Model.

        <bullet>  The Cosmic Frontier, using underground experiments 
        and telescopes, both ground and space based, to reveal the 
        natures of dark matter and dark energy and using high-energy 
        particles from space to probe new phenomena.

    As described in the box on pages X-XX, these three frontiers form 
an interlocking framework that addresses fundamental questions about 
the laws of nature and the cosmos. These three approaches ask different 
questions and use different techniques, but they ultimately aim at the 
same transformational science.

The changing context

    Recent reports, including the National Research Council's 
``Revealing the Hidden Nature of Space and Time'' (the EPP2010 report) 
and earlier P5 reports, have discussed the outlook for the field of 
particle physics in the United States. The scientific priorities have 
not changed since those reports appeared, but the context for the 
scientific opportunities they describe has altered.
    Particle physics in the United States is in transition. Two of the 
three high-energy physics colliders in the U.S. have now permanently 
ceased operation. The third, Fermilab's Tevatron, will turn off in the 
next few years. The energy frontier, defined for decades by Fermilab's 
Tevatron, will move to Europe when CERN's Large Hadron Collider begins 
operating. American high-energy physicists have played a leadership 
role in developing and building the LHC program, and they constitute a 
significant fraction of the LHC collaborations--the largest group from 
any single nation. About half of all U.S. experimental particle 
physicists participate in LHC experiments.
    As this transition occurs, serious fiscal challenges change the 
landscape for U.S. particle physics. The large cost estimate for the 
International Linear Collider, a centerpiece of previous reports, has 
delayed plans for a possible construction start and has led the 
particle physics community to take a fresh look at the scientific 
opportunities in the decade ahead. The severe funding reduction in the 
Omnibus Bill of December 2007 stopped work on several projects and had 
damaging impacts on the entire field. The present P5 panel has 
developed a strategic plan that takes these new realities into account.

Overall recommendation

    Particle physics explores the fundamental constituents of matter 
and energy and the forces that govern their interactions. Great 
scientific opportunities point to significant discoveries in particle 
physics in the decade ahead.
    Research in particle physics has inspired generations of young 
people to engage with science, benefiting all branches of the physical 
sciences and strengthening the scientific workforce. To quote from the 
EPP2010 report:

         ``A strong role in particle physics is necessary if the United 
        States is to sustain its leadership in science and technology 
        over the long-term.''

    The present P5 panel therefore makes the following overall 
recommendation:

         The panel recommends that the U.S. maintain a leadership role 
        in world-wide particle physics. The panel recommends a strong, 
        integrated research program at the three frontiers of the 
        field: the Energy Frontier, the Intensity Frontier and the 
        Cosmic Frontier.

The Energy Frontier

    Experiments at energy-frontier accelerators will make major 
discoveries about particles and their interactions. They will address 
key questions about the physical nature of the universe: the origin of 
particle masses, the existence of new symmetries of nature, the 
existence of extra dimensions of space, and the nature of dark matter. 
Currently, the Tevatron at Fermilab is the highest-energy collider 
operating in the world.

         The panel recommends continuing support for the Tevatron 
        Collider program for the next one to two years, to exploit its 
        potential for discoveries.

    In the near future, the Large Hadron Collider at CERN in Geneva, 
Switzerland will achieve much higher collision energies than those of 
any previous accelerator, to explore the energy range we call the 
Terascale. The LHC represents the culmination of more than two decades 
of international effort and investment, with major U.S. involvement. 
Experiments at the LHC are poised to make exciting discoveries that 
will change our fundamental understanding of nature. Significant U.S. 
participation in the full exploitation of the LHC has the highest 
priority in the U.S. high-energy physics program.

         The panel recommends support for the U.S. LHC program, 
        including U.S. involvement in the planned detector and 
        accelerator upgrades.

    The international particle physics community has reached consensus 
that a full understanding of the physics of the Terascale will require 
a lepton collider as well as the LHC. The panel reiterates the 
importance of such a collider. In the next few years, results from the 
LHC will establish its required energy. If the optimum initial energy 
proves to be at or below approximately 500 GeV, then the International 
Linear Collider is the most mature and ready-to-build option with a 
construction start possible in the next decade. A requirement for 
initial energy much higher than 500 GeV will mean considering other 
collider technologies. The cost and scale of a lepton collider mean 
that it would be an international project, with the cost shared by many 
nations. International negotiations will determine the siting; the host 
will be assured of scientific leadership at the energy frontier. 
Whatever the technology of a future lepton collider, and wherever it is 
located, the U.S. should plan to play a major role.
    For the next few years, the U.S. should continue to participate in 
the international R&D program for the ILC to position the U.S. for an 
important role should the ILC be the choice of the international 
community. The U.S. should also participate in coordinated R&D for the 
alternative accelerator technologies that a lepton collider of higher 
energy would require.

         The panel recommends for the near future a broad accelerator 
        and detector R&D program for lepton colliders that includes 
        continued R&D on ILC at roughly the proposed FY 2009 level in 
        support of the international effort. This will allow a 
        significant role for the U.S. in the ILC wherever it is built. 
        The panel also recommends R&D for alternative accelerator 
        technologies, to permit an informed choice when the lepton 
        collider energy is established.

The Intensity Frontier

    Recent striking discoveries make the study of the properties of 
neutrinos a vitally important area of research. Measurements of the 
properties of neutrinos are fundamental to understanding physics beyond 
the Standard Model and have profound consequences for the evolution of 
the universe. The latest developments in accelerator and detector 
technology make possible promising new scientific opportunities in 
neutrino science as well as in experiments to measure rare processes. 
The U.S. can build on the unique capabilities and infrastructure at 
Fermilab, together with DUSEL, the Deep Underground Science and 
Engineering Laboratory proposed for the Homestake Mine in South Dakota, 
to develop a world-leading program of neutrino science. Such a program 
will require a multi-megawatt-powered neutrino source at Fermilab.

         The panel recommends a world-class neutrino program as a core 
        component of the U.S. program, with the long-term vision of a 
        large detector in the proposed DUSEL and a high-intensity 
        neutrino source at Fermilab.

         The panel recommends an R&D program in the immediate future to 
        design a multi-megawatt proton source at Fermilab and a 
        neutrino beamline to DUSEL and recommends carrying out R&D on 
        the technologies for a large multi-purpose neutrino and proton 
        decay detector.

    Construction of these facilities could start within the 10-year 
period considered by this report.
    A neutrino program with a multi-megawatt proton source would be a 
stepping stone toward a future neutrino source, such as a neutrino 
factory based on a muon storage ring, if the science eventually 
requires a more powerful neutrino source. This in turn could position 
the U.S. program to develop a muon collider as a long-term means to 
return to the energy frontier in the U.S.
    The proposed DUSEL is key to the vision for the neutrino program. 
It is also central to non-accelerator experiments searching for dark 
matter, proton decay and neutrino-less double beta decay. DOE and NSF 
should define clearly the stewardship responsibilities for such a 
program.

         The panel endorses the importance of a deep underground 
        laboratory to particle physics and urges NSF to make this 
        facility a reality as rapidly as possible. Furthermore the 
        panel recommends that DOE and NSF work together to realize the 
        experimental particle physics program at DUSEL.

    Scientific opportunities through the measurement of rare processes 
include experiments to search for muon-to-electron conversion and rare-
kaon and B-meson decay. Such incisive experiments, complementary to 
experiments at the LHC, would probe the Terascale and possibly much 
higher energies.

         The panel recommends funding for measurements of rare 
        processes to an extent depending on the funding levels 
        available, as discussed in more detail in Sections 3.2.2 and 
        7.2.3.

The Cosmic Frontier

    Although 95 percent of the universe appears to consist of dark 
matter and dark energy, we know little about either of them. The quest 
to elucidate the nature of dark matter and dark energy is at the heart 
of particle physics--the study of the basic constituents of nature, 
their properties and interactions.
    The U.S. is presently a leader in the exploration of the Cosmic 
Frontier. Compelling opportunities exist for dark matter search 
experiments, and for both ground-based and space-based dark energy 
investigations. In addition, two other cosmic frontier areas offer 
important scientific opportunities: the study of high-energy particles 
from space and the cosmic microwave background.

         The panel recommends support for the study of dark matter and 
        dark energy as an integral part of the U.S. particle physics 
        program.

         The panel recommends that DOE support the space-based Joint 
        Dark Energy Mission, in collaboration with NASA, at an 
        appropriate level negotiated with NASA.

         The panel recommends DOE support for the ground-based Large 
        Synoptic Survey Telescope program in coordination with NSF at a 
        level that depends on the overall program budget.

         The panel further recommends joint NSF and DOE support for 
        direct dark matter search experiments.

         The panel recommends limited R&D funding for other particle 
        astrophysics projects and recommends establishing a Particle 
        Astrophysics Science Advisory Group.

Enabling technologies

    The U.S. must continue to make advances in accelerator and detector 
R&D to maintain leadership at the Intensity and Cosmic Frontiers of 
particle physics; to allow for a return to the Energy Frontier in the 
U.S.; and to develop applications for the benefit of society.

         The panel recommends a broad strategic program in accelerator 
        R&D, including work on ILC technologies, superconducting rf, 
        high-gradient normal-conducting accelerators, neutrino 
        factories and muon colliders, plasma and laser acceleration, 
        and other enabling technologies, along with support of basic 
        accelerator science.

         The panel recommends support for a program of detector R&D on 
        technologies strategically chosen to enable future experiments 
        to advance the field, as an essential part of the program.

Benefits to society

    The drive to understand the world around us is a basic part of our 
humanity. Research in fundamental science provides the ideas and 
discoveries that form the long-term foundation for science and 
technology as a whole, which in turn drive the global economy and our 
very way of life. Each generation of particle accelerators and 
detectors builds on the previous one, raising the potential for 
discovery and pushing the level of technology ever higher. From the 
earliest days of high energy physics in the 1930s to the latest 21st 
century initiatives, the bold and innovative ideas and technologies of 
particle physics have entered the mainstream of society to transform 
the way we live. Section 2 addresses these benefits in more detail.
    Unique to particle physics is the scale of the science: the size 
and complexity not only of accelerators and detectors but also of 
scientific collaborations. For example, superconducting magnets existed 
before Fermilab's Tevatron accelerator, but the scale of the 
accelerator made the production of such magnets an industrial process, 
which led to cost-effective technology for magnetic resonance imaging. 
The World Wide Web was invented to solve the problem of communicating 
in international collaborations of many hundreds of physicists. The 
scale on which particle physicists work results in innovations that 
broadly benefit society.
    Particle physics has a profound influence on the workforce. The 
majority of students trained in particle physics find their way to 
diverse sectors of the national economy such as national defense, 
information technology, medical instrumentation, electronics, 
communications, transportation, biophysics and finance--wherever the 
workforce requires highly developed analytical and technical skills, 
the ability to work in large teams on complex projects, and the ability 
to think creatively to solve unique problems.

The international context

    The scientific opportunities provided by particle physics bring 
together scientists from every corner of the globe to work together on 
experiments and projects all over the world. Both the technical scale 
and the costs of today's largest accelerators and experiments put them 
beyond the reach of any single nation's ability to build or operate. 
Particle physics projects now take shape as international endeavors 
from their inception. As the costs and scale of particle physics 
facilities grow, international collaboration becomes increasingly 
important to the vitality of the field. Global cooperation, a hallmark 
of particle physics research, will be even more important in the 
future.
    The Large Hadron Collider accelerator and detector system, for 
example, drew from innovation and expertise in Europe, the Americas and 
Asia to deliver the cutting-edge technology required for this next-
generation collider program. The proposed LHC upgrades will likewise 
have continuing and very significant contributions from these regions. 
The successful programs at the KEK and SLAC B factories and at the 
Tevatron provide additional examples of the benefits of international 
collaboration. These scientific collaborations take on new significance 
as beacons for free and open exchange among men and women of science of 
all nations. They offer an inspiring model for cooperation from a field 
long known for its leadership in international collaboration.
    As particle physics moves into the future, the balance of the 
physical location of the major facilities among the regions of the 
world will be key to maintaining the vitality of the field in each 
region and as a whole. In developing a strategic plan for U.S. particle 
physics, the P5 panel kept the international context very much in mind.

The funding scenarios

    The funding agencies asked the panel to develop plans in the 
context of several DOE funding scenarios:

        A.  Constant level of effort at the FY 2008 funding level

        B.  Constant level of effort at the FY 2007 funding level

        C.  Doubling of budget over ten years starting in FY 2007

        D.  Additional funding above the previous level, associated 
        with specific activities needed to mount a leadership program.

    The FY 2007 DOE funding level was $752M; the FY 2008 level was 
$688M. Constant level of effort here means that the budget increases 
with inflation in then-year dollars. The panel also received guidance 
on NSF budget assumptions. Interagency collaboration on particle 
physics experiments has become increasingly important. The plan 
presented in this report depends on such collaborative funding among 
DOE, NSF and NASA.
    The panel evaluated the scientific opportunities for particle 
physics in the next 10 years under the various budget scenarios.

Scenario B: Constant level of effort at the FY 2007 level

    The scenario of constant level of effort at the FY 2007 level, 
Scenario B, would support major advances at all three interrelated 
frontiers of particle physics. At the Energy Frontier, the Fermilab 
Tevatron would run in 2009, but the planned run in 2010 to complete the 
program could not take place due to budgetary constraints. The LHC 
experiments would be well under way. These experiments will likely make 
significant discoveries that could change our fundamental understanding 
of nature. R&D would go forward on future lepton colliders. At the 
Intensity Frontier, the MINOS, Double Chooz, Daya Bay and NOnA 
experiments would yield a greatly improved--if not complete--
understanding of the fundamental properties of neutrinos. Precision 
measurements, limited to a muon-to-electron conversion experiment, 
would be carried out and the U.S. would participate in one offshore 
next-generation B Factory. On the Cosmic Frontier, greatly improved 
measurements shedding light on the nature of dark energy would come 
from the DES, JDEM and LSST projects. The next generation of dark 
matter search experiments would reach orders-of-magnitude greater 
sensitivity to--perhaps even discover--particles that can explain dark 
matter.
    Under Scenario B, the U.S. would play a leadership role at all 
three frontiers. Investments in accelerators and detectors at the LHC 
would enable U.S. scientists to play a leading role in the second 
generation of studies at the Energy Frontier. Investments in facility 
capabilities at the Intensity Frontier at Fermilab and DUSEL would 
allow the U.S. to be a world leader in neutrino physics in the 
following decade. Funding of the cutting edge experiments studying dark 
matter and dark energy would insure continued U.S. leadership at the 
Cosmic Frontier. Investments in a broad strategic accelerator R&D 
program would enable the U.S. to remain at the forefront of accelerator 
developments and technologies focused on the needs of the U.S. program 
at the Energy and Intensity Frontiers.

Scenario A: Constant level of effort at the FY 2008 level

    Budget Scenario A would significantly reduce the scientific 
opportunities at each of the three frontiers compared to Scenario B 
over the next 10 years. It would severely limit scientific 
opportunities at the Intensity Frontier during the next decade. 
Scenario A would require canceling planned experiments and delaying 
construction of new facilities. It would slow progress in understanding 
dark energy at the Cosmic Frontier and R&D toward future accelerator 
facilities at the Energy Frontier. It would cut the number of 
scientists, as well as graduate students and postdoctoral fellows. 
Scenario A would unduly delay projects, extending them over a longer 
period.
    Scenario A would most profoundly limit studies at the Intensity 
Frontier, with a negative impact on both neutrino physics and high-
sensitivity measurements. It would require cancellation of the NOnA 
neutrino experiment that is ready for construction. The MINERnA 
experiment could not run beyond FY 2010 due to lack of funds to operate 
the Fermilab accelerator complex. Consequently, a first look at the 
neutrino mass hierarchy would be unlikely during the next decade, and 
experimenters could not measure neutrino cross sections, including 
those important to future long-baseline neutrino oscillation 
experiments. The U.S. could not contribute significantly to the next-
generation overseas B factories that will carry out unprecedented 
studies of matter-antimatter asymmetry and searches for new processes 
in the quark sector. Furthermore, this budget scenario would delay the 
construction of a high-intensity proton source at Fermilab by at least 
three to five years. This delay would in turn severely compromise the 
program of neutrino physics and of high-sensitivity searches for rare 
decays at the Intensity Frontier in the subsequent decade.
    For dark-energy studies at the Cosmic Frontier, Budget Scenario A 
would delay DOE funding for the ground-based LSST telescope.
    This budget scenario could not support the investment in new 
facilities for advanced accelerator R&D, important for future 
accelerators both at the energy frontier and for other sciences. As 
discussed above, it would also delay the construction of a high-
intensity proton source, postponing the establishment of a foundation 
for energy frontier studies at a possible future muon collider.
    Scenario A would require an additional reduction of approximately 
10 percent beyond the FY 2008 cuts in the number of scientists over the 
10-year period. It would lead to a significant drop in the number of 
graduate students and postdoctoral fellows. Scenario A's drought in R&D 
coupled with delays in facility construction imposed during this decade 
would limit scientific opportunities in the subsequent decade.
    Overall, while this funding level could deliver significant 
science, there would be outstanding scientific opportunities that could 
not be pursued. It would sharply diminish the U.S. capability in 
particle physics from its present leadership role.

Scenario C: The doubling budget

    Budget Scenario C would support a world-class program of scientific 
discovery at all three frontiers in the decade ahead. It would provide 
strong support for the development of future research capabilities and 
of the scientific work force. Programs could move forward at a more 
efficient pace, with reduced costs, more timely physics results and 
increased scientific impact.
    At the Energy Frontier, this budget scenario would extend the 
discovery potential of the Fermilab Tevatron Collider by supporting 
operation in FY 2010. Budget scenario C would provide robust funding 
for exploitation of the LHC physics potential. It would increase 
operations funding for U.S. groups working in Europe on the LHC and 
provide the needed personnel support at both universities and national 
laboratories for LHC detector and machine upgrades.
    Progress toward a future lepton collider is a very high priority of 
the field worldwide. Should results from the LHC show that the ILC is 
the lepton collider of choice, funding in this scenario would support 
R&D and enable the start of construction of an ILC abroad. If LHC 
results point to another lepton collider technology, its R&D would 
advance. Increased funding for muon collider R&D would lead to an 
earlier feasibility determination for a neutrino factory and perhaps a 
muon collider.
    Scenario C would significantly advance the exploration of physics 
at the Intensity Frontier. Construction of a new high-intensity proton 
source at Fermilab, which would support both neutrino physics and 
precision searches for rare decays, would be complete. Scenario C would 
enable an earlier construction start than would Scenario B and would 
shorten the construction time. It would also advance the design and 
construction of a beamline to DUSEL and would reduce the overall cost 
and risk of both these projects. Efforts to develop the technology for 
large-scale liquid argon or water Cerenkov detectors for neutrino 
physics and proton decay would benefit greatly from increased funding, 
leading to an earlier construction start, shorter construction period 
and reduced risk for a large underground detector at DUSEL. Scenario C 
would enable the high-sensitivity neutrino experiment to operate during 
the decade, providing great sensitivity to matter-antimatter asymmetry 
in neutrinos. Scenario C would also enable new rare K-decay experiments 
highly sensitive to new physics.
    At the Cosmic Frontier, Scenario C would advance the exploration of 
dark energy by enabling the timely completion of the two most sensitive 
detectors of dark energy, the JDEM space mission and the ground-based 
LSST telescope. Scenario C enables strategic, large-scale investments 
in exciting projects at the boundary between particle physics and 
astrophysics, the study of high-energy particles from space. Without 
these investments, the U.S. will likely lose leadership in this rapidly 
developing area.
    Budget scenario C would provide needed additional funds to advance 
accelerator R&D and technology goals. These goals go well beyond 
preparation for possible participation in ILC. Accelerator goals for 
the field include advancing the development of key enabling 
technologies such as superconducting rf technology, high-field magnet 
technology, high-gradient warm rf accelerating structures, rf power 
sources, and advanced accelerator R&D, all of which could greatly 
benefit from increased funding.
    Increased funding in Scenario C would allow a robust detector R&D 
program in the U.S. to prepare for future experiments at both the 
energy and intensity frontiers.
    Budget Scenario C provides desperately needed resources to rebuild 
university and laboratory infrastructure that has eroded during lean 
funding years and would allow retention and hiring of needed laboratory 
and university technical staff. This budget scenario would provide 
additional support for university groups, further addressing the 
pressing needs enunciated in several recent reports, among them the 
National Academy's ``Rising Above the Gathering Storm.''

Scenario D: Additional funding

    The following scientific opportunities would justify additional 
funding above the level of the funding scenarios discussed above.
    A lepton collider will be essential for the in-depth understanding 
of new physics discovered at the LHC: the source of the masses of the 
elementary particles, new laws of nature, additional dimensions of 
space, the creation of dark matter in the laboratory, or something not 
yet imagined. Major participation by the U.S. in constructing such a 
facility would require additional funding beyond that available in the 
previous funding scenarios.
    The study of dark energy is central to the field of particle 
physics. DOE is currently engaged with NASA in negotiations concerning 
the space-based Joint Dark Energy Mission. If the scale of JDEM 
requires significantly more funding than is currently being discussed, 
an increase in the budget beyond the previous funding scenarios would 
be justified.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Appendix 3

                     Economic and Societal Benefits

    Although the purpose of particle physics research is to gain 
knowledge about the world around us and is not directly focused on 
applications, much of the research requires the development of new 
techniques. Particle physics is also not directly focused on education, 
but it has great impact as it inspires the young to technical and 
scientific careers and trains students rigorously who work in the 
field. The field thus contributes broadly through applications and 
education to the economic benefit of the society.
    The attraction of Fermilab to young students is remarkable. Either 
directly or indirectly through their teachers we have connections to 
more than 30,000 students and 2,000 teachers yearly in grades K through 
12th. For many years we have hosted Saturday Morning Physics bringing 
students from the local high schools to Fermilab. Science fairs at the 
laboratory bring thousands of guests of all ages. Cosmic ray chambers 
at high schools allow students and their teachers to build a network to 
study extensive cosmic ray showers in the atmosphere.
    Those students attracted to scientific careers will pursue advanced 
degrees in many of our research universities, all of which have strong 
particle physics groups that collaborate here and in Europe on 
forefront experiments. Fermilab has produced more than 1,700 Ph.D.s 
with nearly half coming from abroad. These students are trained 
technically and trained to work cooperatively with colleagues across 
the world. It is not unusual in particle physics collaborations to have 
colleagues from countries that are in conflict and at each other's 
throats working together to solve research problems at work or when 
breaking bread together.
    Innovation has characterized particle physics. As technologies have 
found broad application, particle physicists cannot claim all the 
credit since as technologies evolve they advance in broad multi-
disciplinary fronts with many contributors. It is possible however to 
trace the origin of technologies to the early applications that 
establish their foundations. On these foundations industry produces 
practical products and tools. A study of these applications was done in 
connection with the Particle Physics Prioritization Panel of the HEPAP 
advisory committee in 2008 and its conclusions are reproduced below.

2.  PARTICLE PHYSICS IN THE NATIONAL AND INTERNATIONAL CONTEXT

2.1.  LONG-TERM VALUE OF RESEARCH IN FUNDAMENTAL SCIENCES

    The drive to understand the world around us is a basic part of our 
humanity. Research in fundamental science provides the ideas and 
discoveries that form the long-term foundation for science and 
technology as a whole, which in turn drive the global economy and our 
very way of life.
    In 2005, a panel of nationally recognized experts from across the 
spectrum of science and society, chaired by Norman Augustine, retired 
Chairman and Chief Executive Officer Lockheed Martin Corporation, 
produced ``Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future.'' To quote from the report:

         ``The growth of economies throughout the world has been driven 
        largely by the pursuit of scientific understanding, the 
        application of engineering solutions, and the continual 
        technological innovation. Today, much of everyday life in the 
        United States and other industrialized nations, as evidenced in 
        transportation, communication, agriculture, education, health, 
        defense, and jobs, is the product of investments in research 
        and in the education of scientists and engineers. One need only 
        think about how different our daily lives would be without the 
        technological innovations of the last century or so.''

    The ``Gathering Storm'' report makes the following recommendation:

         ``Sustain and strengthen the Nation's traditional commitment 
        to long-term basic research that has the potential to be 
        transformational to maintain the flow of new ideas that fuel 
        the economy, provide security, and enhance the quality of 
        life.''

    The ``Gathering Storm'' report was influential in forging a 
bipartisan accord in Washington to strive toward global leadership in 
science for the U.S. by doubling the funding for research in the 
physical sciences over the next decade, among other actions.
    Particle physics is a central component of the physical sciences, 
focused on the fundamental nature of matter and energy, and of space 
and time. Discoveries in particle physics will change our basic 
understanding of nature. Particle physics has inspired generations of 
young people to get involved with science, benefiting all branches of 
the physical sciences and strengthening the scientific workforce.
    To quote from another National Academies report, ``Charting the 
Course for Elementary Particle Physics,'' the work of a panel including 
leaders from both science and industry and chaired by economist Harold 
Shapiro:

         ``A strong role in particle physics is necessary if the United 
        States is to sustain its leadership in science and technology 
        over the long-term.''

    That report continues:

         ``The committee affirms the intrinsic value of elementary 
        particle physics as part of the broader scientific and 
        technological enterprise and identifies it as a key priority 
        within the physical sciences.''

    Besides its long-term scientific importance, particle physics 
generates technological innovations with profound benefits for the 
sciences and society as a whole.

2.2. BENEFITS TO SOCIETY

    It's a simple idea. Take the smallest possible particles. Give them 
the highest possible energy. Smash them together. Watch what happens. 
From this simple idea have come the science and technology of particle 
physics, a deep understanding of the physical universe and countless 
benefits to society.
    Each generation of particle accelerators and detectors builds on 
the previous one, raising the potential for discovery and pushing the 
level of technology ever higher. In 1930, Ernest O. Lawrence, the 
father of particle accelerators, built the first cyclotron at Berkeley, 
California. He could hold it in his hand. Larger and more powerful 
accelerators soon followed. After a day's work, Lawrence often operated 
the Berkeley cyclotrons through the night to produce medical isotopes 
for research and treatment. In 1938, Lawrence's mother became the first 
cancer patient to be treated successfully with particles from 
cyclotrons. Now doctors use particle beams for the diagnosis and 
healing of millions of patients. From the earliest days of high energy 
physics in the 1930s to the latest 21st century initiatives, the bold 
and innovative ideas and technologies of particle physics have entered 
the mainstream of society to transform the way we live.
    Some applications of particle physics--the superconducting wire and 
cable at the heart of magnetic resonance imaging magnets, the World 
Wide Web--are so familiar they are almost cliches. But particle physics 
has myriad lesser-known impacts. Few outside the community of experts 
who study the behavior of fluids in motion have probably heard of the 
particle detector technology that revolutionized the study of fluid 
turbulence in fuel flow.
    What is unique to particle physics is the scale of the science: the 
size and complexity not only of accelerators and detectors but also of 
scientific collaborations. For example, superconducting magnets existed 
before Fermilab's Tevatron, but the scale of the accelerator made the 
production of such magnets an industrial process, which led to cost-
effective technology for magnetic resonance imaging. The World Wide Web 
was invented to solve the problem of communicating in an international 
collaboration of many hundreds of physicists. The scale on which 
particle physicists work results in innovations that broadly benefit 
society.
    Selected examples from medicine, homeland security, industry, 
computing, science, and workforce development illustrate a long and 
growing list of beneficial practical applications with origins in 
particle physics.

Medicine: cancer therapy

    The technologies of particle physics have yielded dramatic advances 
in cancer treatment. Today, every major medical center in the Nation 
uses accelerators producing X-rays, protons, neutrons or heavy ions for 
the diagnosis and treatment of disease. Particle accelerators play an 
integral role in the advance of cancer therapy. Medical linacs for 
cancer therapy were pioneered simultaneously at Stanford and in the UK 
in the 1950s using techniques that had been developed for high energy 
physics research. This R&D spawned a new industry and has saved 
millions of lives.
    Today it is estimated that there are over 7,000 operating medical 
linacs around the world that have treated over 30,000,000 patients.
    Fermilab physicists and engineers built the Nation's first proton 
accelerator for cancer therapy and shipped it to the Loma Linda 
University Medical Center, where it has treated some 7,000 patients. 
Relative to X-rays, proton therapy offers important therapeutic 
benefits, especially for pediatric patients. The Neutron Therapy 
Facility at Fermilab has the highest energy and the deepest penetration 
of any fast neutron beam in the United States. Neutrons are effective 
against large tumors. More than 3,500 patients have received treatment 
at the Neutron Therapy Facility.

Medicine: diagnostic instrumentation

    Particle physics experiments use an array of experimental 
techniques for detecting particles; they find a wide range of practical 
applications. Particle detectors first developed for particle physics 
are now ubiquitous in medical imaging. Positron emission tomography, 
the technology of PET scans, came directly from detectors initially 
designed for particle physics experiments sensing individual photons of 
light. Silicon tracking detectors, composed of minute sensing elements 
sensitive to the passage of single particles, are now used in 
neuroscience experiments to investigate the workings of the retina for 
development of retinal prosthetics for artificial vision.

Homeland security: monitoring nuclear nonproliferation

    In nuclear reactors, the amount of plutonium builds up as the 
uranium fuel is used, and the number and characteristics of anti-
neutrinos emitted by plutonium differ significantly from those of anti-
neutrinos emitted by uranium. This makes it possible for a specially 
doped liquid scintillator detector monitoring the anti-neutrino flux 
from a nuclear reactor core to analyze the content of the reactor and 
verify that no tampering has occurred with the reactor fuel. Lawrence 
Livermore National Laboratory has built and is testing a one-ton 
version of this type of detector, originally developed by high energy 
physicists to study the characteristics of neutrinos and anti-
neutrinos, as a demonstration of a new monitoring technology for 
nuclear nonproliferation.

Industry: power transmission

    Cables made of superconducting material can carry far more 
electricity than conventional cables with minimal power losses. 
Underground copper transmission lines or power cables are near their 
capacity in many densely populated areas, and superconducting cables 
offer an opportunity to meet continued need. Further superconducting 
technology advances in particle physics will help promote this nascent 
industry.

Industry: biomedicine and drug development

    Biomedical scientists use particle physics technologies to decipher 
the structure of proteins, information that is key to understanding 
biological processes and healing disease. To determine a protein's 
structure, researchers direct the beam of light from an accelerator 
called a synchrotron through a protein crystal. The crystal scatters 
the beam onto a detector. From the scattering pattern, computers 
calculate the position of every atom in the protein molecule and create 
a 3-D image of the molecule. A clearer understanding of protein 
structure allows for the development of more effective drugs. Abbott 
Labs' research at Argonne National Laboratory's Advanced Photon Source 
was critical in developing Kaletra, one of the world's most-prescribed 
drugs to fight AIDS. Next-generation light sources will offer still 
more precise studies of protein structure without the need for 
crystallization.

Industry: understanding turbulence

    Turbulence is a challenge to all areas of fluid mechanics and 
engineering. Although it remains poorly understood and poorly modeled, 
it is a dominant factor determining the performance of virtually all 
fluid systems from long distance oil pipelines to fuel injection 
systems to models for global weather prediction. Improvements to our 
knowledge will have payoffs in reducing energy losses in fuel 
transport, improving efficiency of engines and deepening our 
understanding of global climate behavior. Technology developed for 
particle physics and applied to problems of turbulence has extended our 
understanding of this difficult phenomenon by more than tenfold. 
Silicon strip detectors and low-noise amplifiers developed for particle 
physics are used to detect light scattered from microscopic tracer 
particles in a turbulent fluid. This technique has permitted detailed 
studies of turbulence on microscopic scales and at Reynolds numbers 
more than an order of magnitude beyond any previous experimental reach.

Computing: the World Wide Web

    CERN scientist Tim Berners-Lee developed the World Wide Web to give 
particle physicists a tool to communicate quickly and effectively with 
globally dispersed colleagues at universities and laboratories. The 
Stanford Linear Accelerator Center had the first web site in the United 
States, Fermilab had the second. Today there are more than 150 million 
registered web sites. Few other technological advances in history have 
more profoundly affected the global economy and societal interactions 
than the Web. Revenues from the World Wide Web exceeded one trillion 
dollars in 2001 with exponential growth continuing.

Computing: the Grid

    Particle physics experiments generate unprecedented amounts of data 
that require new and advanced computing technology to analyze. To 
quickly process this data, more than two decades ago particle 
physicists pioneered the construction of low-cost computing farms, a 
group of servers housed in one location. Today, particle physics 
experiments push the capability of the Grid, the newest computing tool 
that allows physicists to manage and process their enormous amounts of 
data across the globe by combining the strength of hundreds of 
thousands of individual computers. Industries such as medicine and 
finance are examples of other fields that also generate large amounts 
of data and benefit from advanced computing technology.

Sciences: synchrotron light sources

    Particle physicists originally built electron accelerators to 
explore the fundamental nature of matter. At first, they looked on the 
phenomenon of synchrotron radiation as a troublesome problem that 
sapped electrons' acceleration energy. However, they soon saw the 
potential to use this nuisance energy loss as a new and uniquely 
powerful tool to study biological molecules and other materials. In the 
1970s, the Stanford Linear Accelerator Center built the first large-
scale light source user facility. Now, at facilities around the world, 
researchers use the ultra-powerful X-ray beams of dedicated synchrotron 
light sources to create the brightest lights on Earth. These luminous 
sources provide tools for protein structure analysis, pharmaceutical 
research and drug development, real-time visualization of chemical 
reactions and biochemical processes, materials science, semiconductor 
circuit lithography, and historical research and the restoration of 
works of art.

Sciences: spallation neutron sources

    Using accelerator technologies, spallation neutron sources produce 
powerful neutron beams by bombarding a mercury target with energetic 
protons from a large accelerator complex. The protons excite the 
mercury nuclei in a reaction process called spallation, releasing 
neutrons that are formed into beams and guided to neutron instruments. 
Using these sophisticated sources, scientists and engineers explore the 
most intimate structural details of a vast array of novel materials.

Sciences: analytic tools

    Particle physicists have developed theoretical and experimental 
analytic tools and techniques that find applications in other 
scientific fields and in commerce. Renormalization group theory first 
developed to rigorously describe particle interactions has found 
applications in solid state physics and superconductivity. Nuclear 
physics uses chiral lagrangians, and string theory has contributed to 
the mathematics of topology. Experimental particle physicists have also 
made contributions through the development of tools for extracting weak 
signals from enormous backgrounds and for handling very large data 
sets. Scientists trained in particle physics have used neural networks 
in neuroscience to investigate the workings of the retina and in 
meteorology to measure raindrop sizes with optical sensors.

Workforce development: training scientists

    Particle physics has a profound influence on the workforce. Basic 
science is a magnet that attracts inquisitive and capable students. In 
particle physics, roughly one sixth of those completing Ph.D.s 
ultimately pursue careers in basic high-energy physics research. The 
rest find their way to diverse sectors of the national economy such as 
industry, national defense, information technology, medical 
instrumentation, electronics, communications, biophysics and finance--
wherever the workforce requires highly developed analytical and 
technical skills, the ability to work in large teams on complex 
projects, and the ability to think creatively to solve unique problems.

A growing list

    The science and technology of particle physics have 
transformational applications for many other areas of benefit to the 
Nation's well-being.

        <bullet>  Food sterilization

        <bullet>  Medical isotope production

        <bullet>  Simulation of cancer treatments

        <bullet>  Reliability testing of nuclear weapons

        <bullet>  Scanning of shipping containers

        <bullet>  Proposed combination of PET and MRI imaging

        <bullet>  Improved sound quality in archival recordings

        <bullet>  Parallel computing

        <bullet>  Ion implantation for strengthening materials

        <bullet>  Curing of epoxies and plastics

        <bullet>  Data mining and simulation

        <bullet>  Nuclear waste transmutation

        <bullet>  Remote operation of complex facilities

        <bullet>  International relations

    At this time there exist few quantitative analyses of the economic 
benefits of particle physics applications. A systematic professional 
study would have value for assessing and predicting the impact of 
particle physics technology applications on the Nation's economy.

2.3. THE INTERNATIONAL CONTEXT

    The scientific opportunities provided by particle physics bring 
together hundreds of scientists from every corner of the globe to work 
together on experiments and projects all over the world. Both the 
technical scale and the costs of today's large accelerators put them 
beyond the reach of any single nation's ability to build or operate. 
Particle physics projects now take shape as international endeavors 
from their inception. These scientific collaborations take on new 
significance as beacons for free and open exchange among men and women 
of science of all nations. They offer an inspiring model for 
cooperation from a field long known for its leadership in international 
collaboration.
    Collider experiments have had strong international collaboration 
from the outset. Experiments at CERN, Fermilab and SLAC combined the 
strengths of U.S., European and Asian groups to achieve the ground-
breaking discoveries that define particle physics today. Accelerator 
design and construction is now a joint effort as well. American 
accelerator physicists and engineers helped the Europeans build the 
Large Hadron Collider at CERN and collaborated with the Chinese to 
build the Beijing Electron-Positron Collider. The GLAST project 
involves a seven-nation collaboration of France, Germany, Italy, Japan, 
Spain, Sweden and the U.S.
    Japan is currently constructing a 50-GeV proton synchrotron at the 
Japan Proton Accelerator Research Complex. The JPARC synchrotron will 
produce an intense neutrino beam aimed at the large Super-Kamiokande 
detector to study neutrino oscillations and matter-antimatter 
asymmetry. This experiment has significant U.S. participation, as did 
its predecessors. U.S. physicists are also working on two overseas 
reactor neutrino experiments, Daya Bay in China and Double Chooz in 
France.
    The KEK B-Factory and the Belle detector continue to operate, and 
plans are under way to significantly increase the collider's beam 
intensity to improve sensitivity to physics beyond the Standard Model. 
Modest U.S. participation continues in this collaboration. At lower 
energies, the new BEPC-II collider in China is about to start 
operation. A number of U.S. groups are working on its experimental 
program.
    Cosmic Frontier experiments have also involved international 
collaboration, but on a smaller scale due to the hitherto modest size 
of the experiments. Here too, however, the magnitude of future 
experiments makes international collaboration essential.
    Planning for the future of the field is also international. Both 
HEPAP and P5 have members from Europe and Asia, essential for 
understanding the current and future programs in those regions at all 
three scientific frontiers in particle physics.
    The transformation occurring in the international scene has 
presented challenges to this panel. Free access for physicists of all 
nations to the world's accelerators rests on the assumption that each 
region takes its share of responsibility by building and operating such 
facilities. In recent decades, each region hosted major collider 
experiments and a variety of smaller experiments. But now, with the end 
of both the Cornell and SLAC collider programs and with the Fermilab 
Tevatron collider about to complete its program in the next few years, 
the map of the field is changing rapidly. Most of the accelerator-based 
experiments in the near-term will occur overseas. The panel has given 
careful consideration to how the changing international context will 
affect the ability of the U.S. to pursue most effectively the 
extraordinary scientific opportunities that lie ahead and to remain a 
world leader in the field of particle physics.

                   Biography for Piermaria J. Oddone

    Oddone was appointed Director of Fermi National Accelerator 
Laboratory in July, 2005. Fermilab, a U.S. Department of Energy 
Laboratory, is managed by Fermi Research Alliance (FRA), a partnership 
of the University of Chicago and the Universities Research Association 
(URA). Fermilab advances the understanding of matter, energy, space and 
time through the study of elementary particle physics. Fermilab 
provides cutting edge particle accelerators and detectors to qualified 
researchers to conduct basic research at the frontiers of particle 
physics and related disciplines. Fermilab also has a vital program in 
particle astrophysics and cosmology linking the physics of elementary 
particles to the evolution and fate of the Universe.
    Oddone was previously Deputy Director of the Lawrence Berkeley 
National Laboratory, with primary responsibility for the scientific 
development of the laboratory and its representation to the agencies. 
Achievements during his tenure as Deputy Director include gaining the 
National Energy Super Computer Center (NERSC), launching and developing 
the Joint Genome Institute (JGI), breaking ground on the Molecular 
Foundry (the LBNL nanosciences center), establishing major new programs 
in quantitative biology, astrophysics and computer science and 
exploiting the Advanced Light Source (ALS).
    Oddone's research has been in experimental particle physics and 
based primarily on electron-positron colliders at the Stanford Linear 
Accelerator Center (SLAC). He invented the Asymmetric B-Factory, a new 
kind of elementary particle collider to study the differences between 
matter and antimatter and worked in the development of the PEP II 
Asymmetric B-Factory at SLAC (a second one was built in Tsukuba, Japan) 
and the formation of the large international collaboration, BaBar, to 
exploit its physics opportunities. Together with the Belle detector in 
Japan, BaBar discovered the violation of matter-antimatter symmetry in 
the decay of particles containing the b quark. Hundreds of researchers 
have exploited the B-Factories over the last decade, developing a 
precise understanding of the quark model. Oddone received the 2005 
Panofsky Award of the American Physical Society for the invention of 
the Asymmetric B-Factory. He is a Fellow of the American Physical 
Society. He was elected as Fellow of the American Academy of Arts & 
Sciences in 2008. He also is a member of the Executive Council of the 
National Laboratory Directors Council (NLDC).
    Oddone was born in Arequipa, Peru, and is a U.S. citizen. After 
receiving his undergraduate degree from MIT, Oddone received his Ph.D. 
in Physics from Princeton University followed by a post-doctoral 
fellowship at Caltech. He joined the Lawrence Berkeley National 
Laboratory in 1972.

    Mr. Lipinski. Thank you, Dr. Oddone.
    Dr. Montgomery.

   STATEMENT OF DR. HUGH E. MONTGOMERY, PRESIDENT, JEFFERSON 
 SCIENCE ASSOCIATES, LLC; DIRECTOR, THOMAS JEFFERSON NATIONAL 
                      ACCELERATOR FACILITY

    Dr. Montgomery. Thank you, Mr. Chairman, Ranking Member 
Inglis and Members of the Committee for the opportunity to 
appear before you. As you might notice, I have a slight accent. 
I have been an active researcher in Europe and in the United 
States for my entire professional career and I am currently 
Director of one of your great attractors, the Thomas Jefferson 
National Accelerator Facility, Jefferson Lab in Newport News. I 
am going to concentrate a little on the nuclear physics aspect 
of this hearing.
    The hearing has a grand and beautiful title: Investigating 
the Nature of Matter, Energy, Space and Time. It could be 
argued that this has been the program since man stood on two 
legs. Indeed, for those of you who think that nuclear physics 
does not affect you, I point out that nuclear physicists study 
the building blocks that make up 99 percent of the mass of our 
everyday world. Since nuclear physics was born about a century 
ago, much has been learned and some of the fundamental 
structures of nuclei have been delineated, but much still 
remains a mystery. Now, while nuclear physics is a basic 
science, it is also important for the impacts it has on 
society, some of which I will mention later. Our field also 
creates a cadre of highly intellectual, highly educated 
individuals capable of addressing the problems facing our 
society.
    Three research thrusts provide the framework that defines 
nuclear physics. Each of these thrusts offers the potential for 
discovery and each is a way to examine the universe and the 
nature of matter. The Continuous Electron Beam Accelerator 
Facility, CEBAF, at Jefferson Lab is the world leader in 
incisive studies of properties of the nucleon and the nuclei, 
distributions of the constituent quarks and gluons, their 
motion and their spin. A truly fascinating aspect of nature is 
that the masses of the protons and neutrons arise not from the 
masses of the quarks within them but rather from their 
interactions. This is Einstein's E = mc<SUP>2</SUP> at work. 
Complementary research is conducted at Brookhaven National 
Laboratory where the Relativistic Heavy Ion Collider (RHIC) 
compresses protons and neutrons in high energy collisions 
between gold nuclei. This actually melts the nuclei and the 
constituents, the quarks and gluons, form a liquid by a plasma 
that is believed to have existed in the first moments of the 
universe.
    The study of the structure of complex nuclei also leads to 
an understanding of how stars and planets are formed from 
nucleo-synthesis. Reactors in different parts of the world are 
used by U.S. physicists to study ghost-like particles called 
neutrinos. The latter is an example from the branch of our 
field labeled fundamental symmetries.
    Now, nuclear physics enjoys a relatively high profile, 
largely due to its role in nuclear weapons and nuclear energy. 
This only hints, however, at the potential that nuclear physics 
holds for society. Radiation imaging techniques developed for 
nuclear physics experiments at Jefferson Lab have led to 
inexpensive mobile devices that detect cancer early and save 
lives. Each year I and maybe one or two of you get a stress 
test using radioactive isotopes and positron-electron 
tomography to ensure that the blood flows through the right 
parts of my heart.
    Nuclear physicists are essential not only in the university 
classroom. They also assume critical roles in society, in 
fields such as national defense and environmental research and 
in industry. These working scientists make essential 
contributions to the education of our citizens in this 
increasingly technological society.
    Now, the United States continues to be the world leader in 
the construction and operation of large nuclear physics 
facilities. We are upgrading existing accelerators, for 
example, doubling the energy of CEBAF, and we will soon start 
construction of the Facility for Rare Isotope Beams at Michigan 
State University. Vigorous operation of these and other 
facilities, RHIC, for example, will underpin a superb science 
program for the next decade and more. And on the horizon, we 
are developing an Electron Ion Collider that will form a 
crucial cornerstone for the field in the subsequent decades.
    In summary, nuclear physics is a key contributor to science 
and society. I believe it is an endeavor worthy of the support 
of the people of this country.
    I would like to thank you again for this opportunity and 
will be happy to try to answer your questions. And if I could 
just use the ``orange time'' in my presentation, I would like 
to suggest that we read the panels behind you. It says on the 
left, ``For I dipped into the future, far as human eyes could 
see, saw the vision of the world and all the wonder that that 
would be,'' and on the right it says, ``Where there is no 
vision, the people perish.'' Thank you.
    [The prepared statement of Dr. Montgomery follows:]

                Prepared Statement of Hugh E. Montgomery

    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee for the opportunity to appear before you to provide testimony 
on the question of ``Investigating the Nature of Matter, Energy, Space, 
and Time.'' While I have only been Director of the Thomas Jefferson 
National Accelerator Facility, Jefferson Lab for the past year, I have 
been an active researcher in the field, here and in Europe, for my 
entire professional career. I am pleased to offer you my perspective on 
the subject with emphasis on that part covered by the programs of the 
Office of Nuclear Physics in the Office of Science of the Department of 
Energy.
    This hearing has been given a grand and beautiful title, 
``Investigating the Nature of Matter, Energy, Space, and Time.'' It 
could be argued that this has been the program of mankind since man 
stood on two legs. For those who may think that nuclear physics does 
not affect you, I would point out that nuclear physicists study the 
building blocks that make up 99.9 percent of the mass of our everyday 
world. We seek not only a concise description of matter but also to 
describe the interactions between the building blocks of matter and the 
way that elements can exist.
    About a century ago, Rutherford performed experiments which 
suggested strongly the existence of a nucleus within each atom. With 
those experiments nuclear physics was born. A major transition took 
place in the middle of the twentieth century with the development of 
accelerators, enabling us to probe and manipulate the nucleus. While 
much has been learned and some of the fundamental structure of nuclei 
has been delineated, much still remains a mystery. To achieve the goal 
of finding the building blocks of the universe, it is therefore 
imperative to continue this quest with the more powerful experimental 
techniques that become available with technological progress.
    Nuclear physics is a basic science and in my testimony I will 
discuss aspects of that fundamental science, an historical perspective 
of the field, its accomplishments, and a look to the future. However, 
nuclear science is also important for the impacts it has on society. 
These impacts come not only from the fundamental understanding that 
results from our research but from the tools and technologies developed 
both from our evolving understanding of nuclei themselves and from the 
novel apparatus devised to obtain that understanding. They range from 
nuclear magnetic resonance imaging, to radioactive tracer tagging (used 
in biological research and cancer detection), to accelerators (used for 
applications as diverse as cancer treatment and semiconductor 
manufacturing, as well as for basic research in many fields), to 
nuclear power and nuclear weapons. The search for basic knowledge in 
nuclear physics also generates a cadre of highly-educated individuals, 
who often apply their training in nuclear physics to a broad range of 
problems faced by society.
    Since a complete discussion of the subject of nuclear physics is 
beyond the scope of this testimony, I will rely on the testimonies of 
my colleagues in this hearing for some of the underpinning context for 
my remarks. For example, I believe that Dr. Kovar's testimony will 
include a complete sketch of the governance and support of nuclear 
physics within the United States. It is indeed important to recognize 
that both the Department of Energy Office of Science and the National 
Science Foundation provide support for research facilities and research 
physicists in this field.
    There are three major components of the field of nuclear physics, 
which I will briefly summarize.
    For the first seventy years of the last century, nuclear physicists 
developed a description of nuclei and their properties in terms of the 
then-known building blocks, protons and neutrons, and their 
interactions. In 1968, we discovered that the nucleons had 
constituents, which we dubbed quarks and we invented gluons to bind 
them together and developed a theory, which we named quantum 
chromodynamics, to describe their interactions. A truly fascinating 
aspect of nature, at this extraordinarily small distance scale, is that 
the masses of the protons and neutrons arise not from the masses of the 
quarks, but rather from the gluons, which carry their interactions. It 
is interesting to speculate on the consequences of this for the 
technology of the next fifty years.
    The Continuous Electron Beam Accelerator Facility at Thomas 
Jefferson National Accelerator Facility, Jefferson Lab, has become the 
world leader in incisive studies of properties of the nucleon and the 
nuclei associated with the distributions of quarks and gluons, their 
motion and their spin. The accelerator was built a little more than a 
decade ago using an innovative, superconducting radio frequency, 
acceleration technique. The current experimental program, with six 
billion (or giga)-electron-volt (six GeV) beam energy and with 
exquisite control of the electron spin, has opened new windows on the 
distributions not only of quarks and gluons, but also of their spin. We 
are now in the midst of an upgrade project to raise the energy to 12 
GeV in order to extend this knowledge. The additional energy will also 
allow us to search directly for configurations where the glue plays a 
predominant role, as predicted by the theory but not yet seen. This 
work has the potential to tell us why we have never yet seen an 
isolated quark or gluon.
    Complementary research at the Relativistic Heavy Ion Collider 
(RHIC) at Brookhaven National Laboratory compresses protons and 
neutrons in high energy collisions between gold nuclei. This raises the 
temperature of the nuclear matter to many thousands of times that of 
the sun. The nuclei then melt, forming a quark-gluon liquid much as ice 
melts into water. This liquid, which exhibits spectacular properties, 
is believed to have existed in the first moments of existence of the 
universe.
    The structure of complex nuclei continues to be a challenging 
subject with new frontiers to be explored. The conventional view of a 
nucleus is that it is built up of protons and neutrons. We label the 
element using the number of the protons. That is the property which 
distinguishes lead from gold, or helium from hydrogen. The numbers of 
neutrons are also important and it is their presence that changes 
hydrogen into deuterium and tritium, or Uranium-235 (the component 
which makes a nuclear fuel ``enriched'') into Uranium-238. Our interest 
today is in manipulating these building blocks of our universe by 
working with rare isotopes and radioactive beams to find the maximum 
numbers of protons or neutrons that we can insert into a given nucleus. 
These studies lead to the understanding of processes like nucleo-
synthesis, the physics that underlies the existence of the stars and 
the planets and the relative abundance of their constituent elements. 
Work is just underway to build a major new facility in the U.S., the 
Facility for Rare Isotope Beams at Michigan State University, to help 
address these questions. At Jefferson Lab, a planned experiment to 
measure the radius of the neutrons in lead will provide input to 
understanding neutron stars.
    In some radioactive decays of nuclei, in particular in b decay, 
neutrinos are produced. The study of these ghost-like particles has 
historically been a very important component of nuclear physics. 
Recently there was some beautiful work employing nuclear reactors such 
as the KamLand experiment, executed in Japan. The Daya Bay neutrino 
oscillation experiment is under construction in China, enabled by 
funding support for U.S. physicists in international collaborations. 
These are examples from the third branch of our field, which is often 
labeled as ``fundamental symmetries.''
    Together these three research thrusts (quantum chromodynamics, 
nuclear structure and astrophysics, and fundamental symmetries), while 
always shifting, are the framework within which nuclear physics has 
defined itself. Each of the directions offers the possibility of 
discovery; each is a way to examine the universe and its building 
blocks. I have emphasized the experimental thrusts within the field, 
but to realize a description also requires a theory. Quantum 
chromodynamics is rich enough to potentially describe not only the 
quarks and gluons and their interactions, but also the nucleons and 
hadrons and their interactions. But executing the calculations is a 
challenge. Nuclear physics theorists have helped to design dedicated 
computer chips, have helped to connect desktop computers in innovative 
ways, and are now turning to the graphics engines to supplement the 
traditional super-computer resources they need for their work.
    Of all the sciences, nuclear physics enjoys a relatively high 
profile due to the prominence of nuclear weapons in the story of the 
second half of the twentieth century as well as the use of nuclear 
fission for nuclear power. Just across the James River from us in 
Surry, Virginia are two nuclear reactors, which supply electricity that 
is clean and reliable. If we can manage the surrounding political 
issues, nuclear power could play a major role in providing energy for 
the human race. Since the discovery of radioactivity, the use of 
nuclear properties for medical treatment has become part of our 
everyday life. Within the past ten years, the radiation imaging 
techniques, developed for nuclear physics experiments at Jefferson Lab, 
have led to the development of fresh approaches to mammography and the 
deployment of inexpensive, mobile commercial devices that detect 
cancers earlier and save lives. Each year I, and perhaps others among 
you, get a stress test that uses radioactive isotopes and positron 
electron tomography to check that my blood is flowing to the right 
parts of my heart. The production of these isotopes is another 
important by-product of the nuclear physics research we do. Nuclear 
physicists are essential not only in the university classroom. They 
assume critical roles in society, in fields such as nuclear energy and 
nuclear medicine and in industry more generally, a fact demonstrated in 
detail by the Cerny report.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, the contributions of working scientists to the 
education of the citizens of our increasingly technological society are 
not only desirable but essential.
    Nuclear physics depends on large facilities, and the United States 
continues to be a world leader in the construction and operation of 
these facilities. These include the devices at the National 
Superconducting Cyclotron Laboratory at Michigan State University, 
CEBAF at Jefferson Lab, and the Relativistic Heavy Ion Collider at 
Brookhaven. (This list is not exclusive, and U.S. nuclear physicists 
also work at other facilities located at laboratories and universities 
across the globe.) We are upgrading the existing accelerators, for 
example taking CEBAF to 12 GeV, and will soon start construction of the 
Facility for Rare Isotope Beams at NSCL. Vigorous operation of these 
and other facilities will underpin a superb science program for the 
next decade and more. What we see on the horizon, as was indicated in 
the 2007 long range plan for the field, is an Electron Ion Collider. 
This could be thought of as a higher energy version of the 
functionality currently provided by CEBAF at Jefferson Lab. The 
discussions of the physics case and of some design concepts are 
currently under way. We are looking to converge on the choice of the 
site in a few years and expect to set a goal of construction towards 
the end of the next decade. This would take our search for, and 
understanding of, the building blocks of the universe to the next stage 
from the nuclear physics point of view. It would form a crucial 
cornerstone for the field in the subsequent decades.
    The state-of-the-art nuclear physics facilities in the United 
States are also available to collaborating scientists from around the 
globe. As hosts we benefit from the influx of young talented scientists 
who participate in the research; some write a doctoral thesis in their 
home institutions while others collaborate as postdoctoral researchers. 
They contribute to the science and often seek positions in academe and 
industry in this country. They represent a valuable ancillary source of 
stimulus for the research and development in our economy and supplement 
our internal educational process. Our DOE Office of Science national 
laboratories are great attractors for scientific talent from across the 
world.
    I mentioned earlier how the ability to construct accelerators 
transformed the field of nuclear physics. Today, accelerators underpin 
not only their traditional use for particle and nuclear physics but 
also a broad range of materials science, medicine and biology. The 
ability to construct a broad range of accelerators is a primary core 
competency associated with the Office of Science laboratories. The 
devices we have today, including the superconducting Continuous 
Electron Beam Accelerator Facility at Jefferson Lab, could not have 
been built with the technologies of 1980. Research and development 
across a broad suite of technologies and with a time-to-use ranging 
from one to thirty years and more is essential. Support for this work 
from the multiple Office of Science programs, which benefits and is 
carried out in multiple locations with the relevant core competencies, 
is an important role for the Department of Energy. If this expertise is 
ensured, we will be able to build the accelerator we will need ten 
years from now to retain world leadership.
    I have attached to this testimony references to several key 
documents and reports that I utilized in its preparation. I have tried 
to impress on you how nuclear physics contributes in an essential way 
to our search for the building blocks of our universe, that this search 
is enormously exciting, and that the United States plays a major role. 
In addition I hope that I have also demonstrated that this science 
plays an essential role in our daily lives keeping us warm or cool, 
spawning new tools and technologies, improving our quality of life, and 
even saving our lives. It also trains bright young scientists who 
contribute to the U.S. in many different ways. I believe it is an 
endeavor worthy of the support of the people of this country. Thank you 
again for this opportunity, I would be happy to try to answer your 
questions.

Document references:

The Frontiers of Nuclear Science: A Long Range Plan, Nuclear Science 
        Advisory Committee, December 2007; http://www.sc.doe.gov/np/
        nsac/nsac.html

Journey into the Heart of Matter, The Department of Energy's Office of 
        Science Office of Nuclear Physics, 2006; www.sc.doe.gov/np/
        publications/NPbrochure<INF>-</INF>2006.pdf

Education in Nuclear Science Report (November 2004); http://
        www.sc.doe.gov/henp/np/nsac/docs/
        NSAC<INF>-</INF>CR<INF>-</INF>education<INF>-</INF>report<INF>-</INF>
        final.pdf

                    Biography for Hugh E. Montgomery

    Hugh E. Montgomery is the Director of the Thomas Jefferson National 
Accelerator Facility (Jefferson Lab).
    As the Lab's Chief Executive Officer, he is responsible for 
ensuring funding for the Lab and for setting policy and program 
direction. In addition, he oversees the delivery of the Lab program and 
ensures that Jefferson Lab complies with all regulations, laws and 
contract requirements. Montgomery also is responsible for developing 
and ensuring relationships with Jefferson Lab's stakeholders.
    In addition to serving as the third Director in the history of 
Jefferson Lab, Montgomery is the President of Jefferson Science 
Associates, LLC. JSA is a joint venture between the Southeastern 
Universities Research Association and CSC Applied Technologies formed 
to operate and manage Jefferson Lab.
    An internationally recognized particle physicist, Montgomery began 
his career in 1972 as a research associate at the Daresbury Laboratory 
and Rutherford High Energy Laboratory in Great Britain. In 1978, he 
became a staff member at CERN in Geneva, Switzerland, where he remained 
until joining the staff at Fermi National Accelerator Laboratory in 
Batavia, IL, as an associate scientist in 1983. Montgomery spent the 
next 25 years of his career at Fermilab, occupying a number of 
positions of responsibility within the laboratory management before 
being named Associate Director for research at Fermilab, a position he 
held until joining Jefferson Lab in 2008. As Associate Director, he was 
responsible for the particle physics and particle astrophysics research 
programs at Fermilab.
    Montgomery's research has focused on expanding the understanding of 
the fundamental components of our universe and how they interact. He 
was involved with muon scattering experiments at CERN and Fermilab, and 
in the DZero Experiment on the Fermilab Tevatron Collider. Active on 
the experiment for 12 years, he was co-spokesman from 1993-99, which 
covered the time of the observation of the top quark.
    In addition to presenting numerous invited talks internationally, 
Montgomery has been actively engaged in many professional committees. 
Notably, as well as participating in two HEPAP Sub-panels, he served 
as: a member of the Review of Department of High Energy Physics of Tata 
Institute for Fundamental Research located in India; a member of the 
FOM Review of NIKHEF in Holland; a member of the APS Panofsky Prize 
Committee; Chairman of the Elementary Particle Physics Review 
Committee, Helmholtz Society, Germany; Chairman of the Atlas Oversight 
Committee, STFC, England; member of the SLAC Policy Committee; Chair of 
the Evaluation Committee of Istituto Nazionale di Fisica Nucleare and 
the Large Hadron Collider Committee, CERN.
    A native of Great Britain, Montgomery earned a Bachelor's and Ph.D. 
in physics from Manchester University, England.

                               Discussion

    Mr. Lipinski. Thank you, Dr. Montgomery, and I do 
appreciate you pointing those out. Those are here in the room 
and I think few of us ever look up and see what is written 
there. I remember when I first started on this committee that I 
did that, but it is something that we forget to look at and we 
forget those messages up there for us.

                     Communicating With the Public

    I want to thank all our witnesses for their testimony. Let 
me begin right now the first round of questions, and the Chair 
will recognize himself for five minutes. This is obviously a 
field that is not easy for everyone to understand and I don't 
claim that I have a great understanding of all of it. Two years 
ago when I was visiting Stanford and SLAC, I had the 
opportunity to meet Pierre Schwab. I don't know if anyone is 
familiar with him. But what really stood about Mr. Schwab is 
that he calls himself a high energy physics groupie. He is an 
entrepreneur, a software engineer. He is not a physicist. But 
he is a man who is fascinated by the research that we are 
discussing today and the fundamental questions that it can 
answer. He donated $1 million of his own money to Stanford's 
Kavli Institute for Particle Astrophysics and Cosmology. I 
bring him up because you seldom see anyone outside of people 
who are physicists really getting involved, talking, having the 
interest in what we are having a hearing on today. I know Dr. 
Randall has done work to make extra dimensions and warped 
passages more accessible to laypeople, but I think we need to 
do more of that, especially in a time of large federal 
deficits, increasingly expensive experiments, you know, just 
trying to get the money to be able to put towards this 
research.
    So my question for the whole panel, I will start with Dr. 
Randall, what can DOE and research community in general do to 
better communicate its goals and triumphs and plans to the 
general public?
    Dr. Randall. That is an excellent question. I just want to 
start by saying that I have found when I have talked to people 
that once people have the opportunity to hear about the science 
they are interested. I think a lot of people are afraid or will 
stay away from it, but once they take seriously the fact that 
you are listening to them, that you want to hear their 
questions, they provide opportunities for people to hear about 
it. There are many more people interested than you would 
imagine. That is not to say everyone is, and I don't think 
everyone should be necessarily, but people that want to know 
about it should have the opportunity to know about it. I think 
of many times I have been in towns where the cab driver is 
like, really, you are lecturing about this? And then the 
lecture hall would be full. I mean, thousands of people will 
show up to listen to this kind of thing if they know about it.
    Having said that, I think that is a difficult question. I 
mean that is more, almost a PR question, you know, how do you 
make people aware of things.
    Mr. Lipinski. Well, we are--because we have to respond to 
our constituents, the American public, unfortunately, you know, 
if you want to look at it that way for the scientific aspect of 
it, that is----
    Dr. Randall. That is not said in a negative way, just so 
you know. It is just that this is not--it is not my area of 
expertise. I mean, what I did is, I tried to say I made a big 
effort to write a book where the information is there for 
people who want to know about it so that it is accessible to 
them, so people who want to understand the science can. But I 
think that there is a lot of people who watch TV, who read 
newspapers that wouldn't read a book, and I think the answer 
there is that it really has to be out. It should be out there 
more in the news. It should be out there more in TV, media, but 
I think that is where people get their information and I think 
there should be more of a sense that people have--they 
shouldn't be as afraid of learning about science, and there 
should be a sense they are being listened to. Even the question 
of black holes at the LHC--this comes up in every lecture I 
give practically--well, are you going to make black holes that 
destroy the world? And you give a scientific answer and 
everyone is happy. I have never heard someone say no, no, no, I 
still don't believe you. I mean, I think they want you to know 
that they are worried, they want to know that you are listening 
to them, that you have addressed these worries and that there 
is interest in science there. And I think that there has to be 
more of that opportunity. I don't know where that would be but 
I think that science reporting--I mean, I do worry that in this 
era where newspapers are facing troubles that science reporting 
will be one of the things that gets cut and I think that is 
exactly the wrong direction to go in at this point, especially 
when science is so essential to so many things that we are 
doing today.
    Mr. Lipinski. You have done an excellent job with the work 
that you have done, Dr. Randall.
    Dr. Randall. Thank you very much for that.
    Mr. Lipinski. I thank you for doing that.
    Any other comments, what can be done? Dr. Oddone, and then 
we will go to Dr. Montgomery.
    Dr. Oddone. Our community is learning how to do this better 
and better. At Fermilab, we hold, for example, a public lecture 
roughly on a monthly basis. We have had 900 people--Lisa 
Randall was there--from the community come and listen to this. 
Through our education program with children, Saturday Morning 
Physics--I think Representative Biggert's son actually took 
advantage of that--we reach many, many children and we have 
programs to train teachers so we are actually working with the 
new generation probably, you know, reach 2,000 teachers and 
some 30,000 K-12 students on this activity.
    And I think we have also created vehicles like Symmetry 
Magazine to reach a much broader audience, and so I think the 
community is getting much more sophisticated about actually 
realizing that it is ultimately the public that supports our 
research and they have to be part of this venture.
    Mr. Lipinski. Dr. Montgomery.
    Dr. Montgomery. My theme is a little similar to Pier's. 
When I arrived in Newport News a year and a half ago, the lady 
next door came with cookies and introduced herself and asked me 
what I was going to do, and I told her I was going to direct 
the Jefferson Lab, and she immediately launched into praise for 
the laboratory's participation in the science education in the 
schools around there. I think that certainly where we have the 
labs, the little bit of funding that goes toward the education 
and involvement directly with the community is an enormous 
winner for everything associated with the program, and the kids 
that come in and visit are really impressed by just the small 
amount of time that a scientist will spend with them and they 
are enormously excited by the coolness of the things that we 
have in the labs.
    Mr. Lipinski. I think you are right on target with that and 
I actually have legislation to encourage the National Labs to 
work with museums for science education. We are--we have votes 
again but at this time I am going to move on to Mr. Inglis. I 
recognize Mr. Inglis for five minutes and then decide how we 
are going to proceed from there. Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman. In the interest of 
time, let me defer to Dr. Ehlers, who actually will have more 
interesting questions than I would have, I think. So Dr. 
Ehlers.

                             String Theory

    Mr. Ehlers. I thank the gentleman for yielding. I hope they 
are interesting questions, partially interesting comments. We 
will just go down the line as time permits.
    Dr. Randall, first of all, I have to congratulate you. You 
destroyed a--I grew up in the Midwest and we have a widespread 
belief there that you have just disproved our belief there, 
that you come from New York and that is why you talk rapidly. 
Midwesterners believe probably to a person that the reason New 
Yorkers speak so rapidly is to cover up that they don't know 
what they are talking about, but you effectively disproved that 
here. Just a quick question, my curiosity. Unfortunately, being 
a good Member of Congress takes about 80 hours a week, which 
leaves me no time to keep up with modern physics, but you 
mentioned string theory. Is there any experimental proof or any 
experimental results that corroborate string theory or is it 
still rather speculative theoretical work?
    Dr. Randall. I am afraid string theory is speculative, 
theoretical work, and that is because it is addressing 
questions that are simply beyond the energies and distances 
that we can explore. Having said that, though, it is important 
to understand that string theory has also given rise to ideas 
that add accessible skills and ideas which are still rather 
exotic sounding to probably most people here, including 
ourselves, such as extra dimensions of space or supersymmetry, 
which Pier mentioned. I mean, actually developing string theory 
led to the development of supersymmetry, which might be around 
the corner. It could be at low energies. So I guess my point is 
that even though string theory itself probably won't be tested 
in the foreseeable future, that is not to say that it is not 
giving rise to theoretical ideas that can change our view of 
the universe and that can actually be tested.
    Mr. Ehlers. If they are corroborated.
    Dr. Randall. Well, they are tested. I didn't mean that they 
are proven.

                      Next Generation Accelerators

    Mr. Ehlers. Okay. Dr. Kovar, you mentioned next-generation 
accelerators, and Dr. Montgomery I believe referred to that 
too, or Dr. Oddone. What do you see on the horizon in next-
generation accelerators?
    Dr. Kovar. So I think there are all sorts of possibilities. 
There are examples of--there is a technique that is called 
Wakefield acceleration, a plasma Wakefield accelerators of 
beams, which may make it possible to have a tabletop 
accelerator that you can use for medical purposes or for 
scanning materials for security. There is a whole range of 
opportunities and we are organizing a workshop in Washington, 
D.C., on October 26 where we are bringing in a group of experts 
and people, people from the scientific community, from the 
medical community, from the security community, from the 
industrial community and those interested in energy and 
environment. And, we are going to try to identify those areas 
in which there is potential for significant advancements and 
what the impact would be in terms of productivity or in terms 
of breakthroughs, and we are going to put that together. We 
have a workshop and there is going to be a report to the Office 
of Science and the Office of High Energy Physics and hopefully 
we are going to--you will see in that report exactly what that 
potential is going to be, but I think there is--I think it is 
extremely important for the Nation. We historically had been 
leaders in accelerator science and in terms of accelerator 
technology. Because of the investments that Pier mentioned in 
Asia and in Europe, in next-generation capabilities--those 
investments have been made over the last decade--we now find 
that that technology has been transferred to those economies. 
The preferred vendors for certain accelerator components are no 
longer in the United States and so I think it is extremely 
important for us to make these investments. I think it is 
important for science but I also think it is very important for 
the Nation and our economy.

                       International Cooperation

    Mr. Ehlers. Dr. Oddone, I think you made the same point 
about the need for the United States to once again take the 
lead with the major facility here. When I first got here, Newt 
Gingrich became Speaker and, as you know, he is very interested 
in science and technology. He gave me the assignment of writing 
the national science policy, which was a huge task for one 
person to try in his first year in office. We actually did it. 
It was the first one written since the Endless Frontier in 
1945, which shows that the scientific community was just 
resting on their laurels in terms of just going ahead. I am not 
counting that I wrote an extremely good report but one aspect I 
pointed out in there, and that is that most--in many areas, 
frontiers of research were becoming so difficult, so expensive, 
so complex that we would be forced into international 
cooperation if we wished to proceed. I recommended that we 
recognize that and proceed on that as a policy. It didn't 
happen as part of our policy but it is happening in fact with 
ITER now developing in France. We simply decided we didn't want 
to put enough money in and by ``we'' I mean the Congress. And--
--
    Mr. Lipinski. Dr. Ehlers.
    Mr. Ehlers.--the Large Hadron Collider, the same situation, 
and I realize my time is expired, but I assume we will come 
back. You can think about the question in the meantime: What 
mechanism should our nation set up with other nations so that 
this will be part of our policy and not happenstance that we 
join with the Large Hadron Collider because Congress killed the 
Superconducting Super Collider, et cetera? So we will get back 
to that when we come back from votes.
    Mr. Lipinski. Thank you, Dr. Ehlers. I hate to interrupt 
you because you certainly have the great knowledge up here 
amongst us. We are--I think at this time because of where we 
are on this vote moving on to another question may take a 
little time. Unfortunately, we are going to have to recess and 
ask our witnesses to come back again, probably 25 minutes. I 
will run back after the third vote and get us started again, 
and just to have an opportunity to ask a couple more questions. 
So the hearing stands in recess.
    [Recess.]
    Mr. Lipinski. The hearing will come back to order.
    Unfortunately, things work very differently here in 
Congress than they do in the laboratory. You continually get 
called away unfortunately and it doesn't give a lot of time for 
concentration, but we are back, and the Chair is going to come 
back and chair but before that I will start us off again, 
because we are going to have votes again relatively soon. The 
Chair will recognize Mr. Inglis for five minutes.
    Mr. Inglis. Thank you, Mr. Chairman, and we want to get 
quickly back to Dr. Ehlers so that he can get another round of 
questions.

                         Dark Energy and Matter

    A question for you, though. We had a wonderful opportunity 
to visit the Ice Cube in Antarctica and saw the work being done 
there on neutrinos. So help me understand, a layman understand 
a little bit of this, Dr. Randall. What is the--how is a--
neutrinos are related to dark energy in what way? I mean, it is 
a mystery to us. Is this right?
    Dr. Randall. There are two different things out there, dark 
matter and dark energy. Dark matter, we really--I would say we 
are on the cusp of understanding dark matter. We have a real 
hope. It is really at scales that we are about to probe. We 
have many different types of experiments that look at both 
directly, which is to say--the point is, dark matter doesn't 
interact very strongly, so in order to increase the probability 
you need huge. So there are huge targets of whatever that could 
look for dark matter or there are other types of astronomical 
experiments that look for the annihilation products of dark 
matter, so dark matter can annihilate with itself and produce 
things that we can observe astronomically like photons or 
neutrinos or whatever. So what the Ice Cube could be connected 
to is dark matter. Dark energy is very mysterious and requires 
a whole different set of types of explanations which we could 
talk about independently. But dark matter is stuff that is just 
like particles. We know about it. It is just that it doesn't 
interact with light as much, but it means that it has particle 
properties that we are familiar with. So what we can look for 
in something like the Ice Cube is, for example, annihilation 
products that come out when dark matter--from dark matter 
annihilation or studying neutrinos directly. So you have these 
big targets which allow--basically, you are, you know, buying a 
lot of lottery tickets. You know, you are increasing the 
probability that even though these neutrinos interact so 
weakly, you are providing the opportunity for it to have some 
interaction that you can actually record.
    Mr. Inglis. Right. So what is--I think we have heard some 
percentages here this morning, but what is the percentage that 
we think we know of energy, we can detect some percentage----
    Dr. Randall. The amount of stuff that we know what it is, 
is really--is very small. It is maybe five percent. Now----
    Mr. Inglis. This is of matter?
    Dr. Randall. And that is to say that is stuff that we 
really understand, like the kind of matter that is here in this 
room that we are made up of. You know, it is funny because 
everyone is always shocked to find out that 25 percent is dark 
matter and 70 percent is dark energy, but I always actually 
found it kind of remarkable that the stuff we know about is as 
big a fraction as it is. I mean, why should the rest of the 
universe--I mean, because we are just making a statement that 
it interacts in the way the stuff we are familiar with does. 
That is to say it interacts in a way that it emits and absorbs 
light, which is really the only way we have had to see things. 
Really, to see its interaction with light is essentially how we 
look out into the universe. And it could be that there is 
matter that for whatever reason doesn't emit or absorb light or 
does it at a much lower level, and that could well be dark 
matter. The really interesting thing theoretically seems to be 
that it could be connected to this very same interaction scale 
that we are probing today at colliders, because what do you 
need to have--so what do we need to actually have dark matter 
out there? Well, you need something that is stable, that hasn't 
decayed, and you need something that has the right density to 
be out there in the abundance that we see it today, which is to 
say in the early universe we can predict how much was 
annihilated, how much is left today, and its interaction scale 
is set by this very same weak scale. It turns out, and it could 
be a coincidence or it could be something deep and meaningful, 
that it gives you the right abundance to be dark matter today. 
So from that perspective, it is actually--if there really is 
something new at the weak scale, which we assume there is, 
perhaps it is less mysterious why there should be dark matter 
out there.
    Mr. Lipinski. So of the matter that we know of, your 
estimate is we know five percent. Ninety-five percent then 
would be in the category of dark matter or in----
    Dr. Randall. Well, like we said, 25 percent is dark matter 
so matter is stuff like made up of particles that clump 
together. It forms galaxies. It forms objects. The rest of it 
is something which is even more mysterious in many ways. It is 
something that Einstein told us was allowed. It is just energy, 
and it is called dark energy, but really it is just energy that 
can be out there permeating the universe. It still emits 
gravity but it doesn't clump, so it is not acting the way 
matter acts. It is really just there in terms of its 
gravitational effect and the energy that is distributed 
throughout the universe, and it is a very big mystery. I mean, 
it was one of the major discoveries to realize that it is there 
at all, but why it has the particular amount it has, why it has 
a comparable amount to the rest of the matter that we know 
about, why it is not huge, which is what actually quantum 
mechanics and special relativity would tell us, it is one of 
the big mysteries that we face today. So understanding dark 
energy could lead to some very--any explanation is going to 
give some deep insight into what is out there.
    Mr. Inglis. Very interesting. Thank you.
    Thank you, Mr. Chairman.

                   Realizing the Taxpayer Investment

    Chairman Baird. Thank you. Good to be here. Sorry I am a 
good bit late but I thank you for your presence and my 
colleagues as well. I want to first say I am very interested in 
what you are doing, the work you are doing. I have had a long 
interest in physics. I am not anywhere near Dr. Ehlers but I 
have had a passionate interest in it. But at the same time we 
have a $10 trillion debt, the deficit is going to exceed $1 
trillion, and to be perfectly blunt, you all are on a pretty 
expensive end of the spectrum and there is an awful lot of 
other things we could spend the money on. So help us 
understand, what do we get for the money? I mean, if I have got 
to go home and tell my fishermen and my loggers and my 
steelworkers and my laborers and my homemakers and my nurses 
and everybody whose tax dollars are going to fund your big 
projects, what do we get for it?
    Dr. Oddone. Let me tackle that one.
    Chairman Baird. You are a brave man. I admire that.
    Dr. Oddone. I think the first thing that you get out of it 
is really a place at the frontier, the opportunity to expand 
knowledge, and it is in a way that is very powerful. If you 
think of how our civilization will be remembered centuries from 
now, the progress that we make in understanding the universe 
around us is what will really be enduring and will remain as 
understanding for humanity, and I think when we invest in this 
area of science, we are at that frontier and we are expanding 
that frontier. So I think it is an opportunity for inspiring 
young people to go into science and it is something that I 
think responds to some very deep human emotion of discovering 
the world around you. So that is the first thing that we are 
motivated by and that you get. But when you do that, when you 
are at the frontier and when you learn something, it is passed 
along and you now put it away and you think well, what I don't 
understand is the next step. You are forced to invent, to 
stretch the technology, to really take things way beyond the 
place at which you found them. And if you look at the history 
of particle physics, we have done that from the beginning of 
accelerators and detectors. Today you can look at how we use 
accelerators, medical accelerators by the thousands and 
accelerators in industry to modify materials, to put ions in 
place, how we have learned to do very fast pattern recognition 
with computers from early computer technology, how, when we try 
to tackle these global projects, physicists invented the World 
Wide Web as a way in which they could all talk to each other 
across dozens of countries, dozens of different technical 
platforms. The tools that come out of accelerator physics are 
employed now in light sources and neutron sources with a wide 
variety of applications. So I think the second thing you get is 
that drive that says, ``these problems are so hard yet they are 
so inspiring,'' that it leads to invention, it leads to us 
really thinking very, very hard about what the technological 
barriers are that prevent us from actually responding to those 
questions that Lisa asked there. And so I think that is the 
second part that you get.
    I think the third part that you get is the fact that this 
type of science really influences science technology, 
engineering and math education in a very broad spectrum. At the 
highest spectrum of very technical people, if you look around 
the universities, this type of research is a vital part of any 
physics department. It is an intellectual part of our 
universities. It brings students and they work at these 
problems and it is part of the miracle of American enterprise 
that the universities, in fact, contribute so much to our 
development across a broad front. Science is a very important 
part in asking those questions, a very important part of 
bringing students into physics and in technical careers. We see 
it at Fermilab at a much younger age. We have a marvelous 
program, very talented people, 200 volunteers that go into the 
community, thousands of children that come to Fermilab, and it 
is an inspiring thing to ask these questions and try to 
understand how the world is put together, these deep mysteries 
of dark energy, dark matter, why the world is dominated by 
matter and not matter and antimatter. They ask the most 
profound questions, very unlike the question you just asked in 
the sense that they don't ask about why, you know, you cost us 
a lot of money and why should we be doing this. They really 
only ask the questions that intrigue them and they are brought 
into this field, and they may not come in as high energy 
physicists someday, but they have been inspired to look at the 
world in a different way. So I think those are the three things 
you get.
    Chairman Baird. Thank you.
    Dr. Montgomery.
    Dr. Montgomery. Yes, I would like to respond a little bit 
in the vein that we talked earlier. I refer to myself as the 
Director of Jefferson Lab. I wrote an article which appeared on 
a page on our web site in which I try to explain that in fact 
when you are sitting in Europe, as I once was, or in China or 
in Japan and you look to the United States, you don't only see 
Harvard. You actually see Fermilab and Jefferson Lab and 
Brookhaven National Lab and LDL and Stanford's linear 
accelerator. And those great attractors actually bring 
scientists, both students who come here but also the 
participants in the experiments, and some significant fraction 
of those people actually want to stay. Given our difficulty in 
educating our society to a level which can actually function in 
today's technological age, that is a major augmentation of our 
system. I think it is a small piece but a very important piece 
of why and what you get from our labs.
    Chairman Baird. Good points.
    Dr. Ehlers.

        International Collaboration and More on Next Generation 
                              Accelerators

    Mr. Ehlers. Thank you, Mr. Chairman. First of all, just a 
side issue but it is something that Dr. Baird and I are both 
very interested in. Dr. Oddone, you mentioned that you 
immigrated to this country to study physics. It is a good thing 
you did it when you did because if you tried to come to this 
country now to do it, you would have a much more difficult time 
getting in. And we have spent time lobbying with the State 
Department and Homeland Security to try to ease this transition 
of scientists, and I was just telling Dr. Baird the other day 
about my son who is a geophysicist and has left this country 
and gone to a very attractive position in Europe, in Germany, 
to be specific. And when he came in, no prior permission, went 
down to register, took 15 minutes, it was all over. Compare 
that to what you have to do to import scientists from other 
countries. So I hope you will join with both of us in trying to 
impress upon the Congress, upon the government, upon Homeland 
Security and so forth that we really have to be certain to 
allow the scientific talent to continue to come into this 
country because if you don't get that talent, they now have 
other places they can go and you are not going to get your next 
generation of accelerators if you don't get in the next 
generation of really bright people. So just a little editorial 
comment there.
    I didn't have much in the way of other questions. You have 
already answered some of my questions about dark energy and 
dark matter, but just getting back to a question I had asked 
before we went to vote, and that is the next-generation 
accelerators, and I think Dr. Oddone and Dr. Montgomery haven't 
had a chance to respond yet, but I am very interested in that 
question because you may reach a point where it is no longer 
appropriate to use accelerators to continue as Dr. Randall 
mentioned. Maybe you are going to be doing more work with 
cosmic rays at some point just because that may be the cheaper 
way to try to learn what you need to learn. I don't know. What 
comments do you have?
    Dr. Oddone. Let me answer that in two ways. The first one 
has to do about international collaboration. You had asked how 
the world is coming together so that for the next major 
facility it doesn't happen because we decided to cancel 
something like the Superconductor and Super Collider. I think 
there are multiple levels in which this international 
collaboration happens. We have many relations, laboratory to 
laboratory, that are very healthy, so if you look at Tevatron, 
for example, 40 percent of the collaborators in physics are 
from Europe and 40 percent of the capital contributions have 
come from Europe. If you look at the Large Hadron Collider, 
there is very significant investment of the United States in 
this facility. We participated in it. We have a remote 
operation center at Fermilab and it is a great opportunity for 
us. I think these models have worked and they represent a 
facility that is either regional or national with international 
participation, where there is an anchor facility or region that 
basically establishes the facility and invites international 
participation. That model has been very successful for us. 
There are new models being explored for what might happen in a 
great new global facility similar in scale to the LHC where 
many countries would come together to try to do that, and there 
is a group. It is not officially constituted. I think it is 
more of a club called Funding Agencies for Large Colliders in 
which all the agencies of interested countries from Europe, the 
United States, China, Japan, Russia and so on participate. They 
are trying to coordinate that global issue to see if we build a 
new facility how should we decide where it goes, what kind of 
governance should we have and so on. So the level of world 
cooperation among the agencies is now much higher than ever 
before in trying to understand how one would move such a large 
facility.
    The other comment that I would make concerns your remark 
about perhaps we ought to do something with cosmic rays that 
might be cheaper, and----
    Mr. Ehlers. By the way, I was not being very serious about 
that.
    Dr. Oddone. I understand, but I should say the following. 
The observations that we make of the cost in the natural world 
lead us to all sorts of questions and contradictions that we 
want to explore, but ultimately we believe this finds the 
resolution in understanding the particles in the fields that 
underlie all of this. And we don't know of any other way really 
to explore that world other than with accelerators. We will 
find phenomena. We may find a dark matter particle, for 
example, deep in a mine, a natural one, and then the question 
will be, well, what is it? And I think until we produce it at 
the Large Hadron Collider, we will not know really what is 
behind it. So I think it is very important to connect the large 
world that we see outside with the world that underpins it, 
which is really the world of the very small that we study with 
accelerators. So I don't think anytime soon we could say that 
we would replace one particular thrust like the energy frontier 
with accelerators or the intensity for dealing with 
accelerators purely with cosmological observation.
    Mr. Ehlers. All right. By the way, if you want to find dark 
matter in the mine, you might want to go to coal mines.
    Dr. Montgomery.
    Dr. Montgomery. So I would like to address your question in 
two pieces also. The first is that not all accelerators are the 
same. In fact, for nuclear physics, what we would really like, 
as I mentioned in my testimony, is if you like, the machine of 
the future would be an electron ion collider and that would 
provide different capabilities, different characteristics than, 
for example, you might look for a particle physics accelerator. 
And that in turn allows me to point out that in fact we 
sometimes discuss how are going to build the next big 
accelerator, the accelerators are what we are discussing. In 
fact, if you look at the science of the Office of Science in 
the Department of Energy, then accelerators underpin the 
science in basic energy sciences, in nuclear physics and in 
particle physics. The whole spectrum is underpinned by the 
ability to build accelerators of different types. And if you 
look at the laboratories that you have, then you will find, for 
example, that Jefferson Laboratory is well known for its 
superconducting radio frequency acceleration technology but it 
is not well known for magnets, and then Lawrence Berkeley Lab 
is known for magnets a little bit it is not known at all for 
superconducting radio frequency. And so in thinking about the 
next accelerators that we build, then the laboratories have to 
work together. And so it is important that the Office of 
Science in general, Department of Energy maybe more broadly, 
ensures that the full spectrum of capability in accelerator 
science, whether it be magnets, radio frequency technology of 
whatever that it is required to build the accelerator in 10 or 
15 years from now is present in one or other of the 
laboratories so that together they can build that accelerator.
    Mr. Ehlers. Thank you very much, and I apologize, Dr. 
Randall.
    Dr. Randall. Just since I was accused of saying it, I just 
want to reiterate a little bit what Pier said, which is that I 
think that there really are different ways of exploring new 
physics, and the essential point to high energy accelerators is 
that it is the only way to directly explore what is there. We 
can get all sorts of indirect clues, but if you think about it 
in any other context of your life, whenever you have had an 
indirect clue, you very rarely know what is really going on. I 
mean, the only way to really understand the details of what is 
out there is to get to the energies where we can make these 
kind of things and explore their properties. That is not to say 
that we don't learn a lot by exploring the cosmos, but it is a 
very different sort of thing, and of course, if we want to know 
if something is dark matter, the cosmos is actually a very good 
place to look because that is where we know it is lurking. But 
if we want to understand detailed properties of the fundamental 
nature of matter, the kind of experiments that we can do when 
we can have control and create things here on Earth and make 
the stuff directly, have it right here to study, it is just a 
completely different type of question that you can ask in that 
case.
    Mr. Ehlers. The point is, with an accelerator you can run 
more of a controlled experiment. With the cosmic rays, you take 
what you get.
    I apologize. I am very late for another meeting I am 
supposed to be at and so I have to leave, but thank you very 
much for a very enlightening session here. Thank you.

                   More on Best Use of Taxpayer Money

    Chairman Baird. I will ask--with the indulgence of my 
friend, Mr. Inglis, I will ask one last question. So I am going 
to continue a line of discussion that I began a second ago and 
follow up in a couple of ways. You look at the Superconducting 
Super Collider which was really a lot of money spent and got 
nothing really out of it, and--I mean out of the failed project 
in Texas, and Large Hadron Collider, you know, tremendous 
amount of money, great expectation. You fire the thing up and 
it sort of self destructs, not entirely, I understand, but we 
now read this sort of, ``well, that is okay, it can still do 
some pretty cool stuff.'' I am paraphrasing here but it 
certainly--I am sure nobody is more disappointed than you folks 
in the scientific community. But there might be one group of 
people a little bit more disappointed, and that would be the 
taxpayers who say look, we put a hell of a lot of money into 
this thing on promise that certain things would be achieved and 
now it is not going to be achieved. If that happened in lots of 
other aspects of government, there would be investigations. I 
mean, you guys would be here before one of these very 
unpleasant oversight committees where somebody would be 
glowering at you. And you get to skate, I mean partly because 
you know stuff we haven't a clue what you are doing, and I 
think that is neat. I admire your knowledge. I admire your 
intellect. But there is a kind of a core responsibility that 
goes with it that says Bob and I and the rest of us up here, we 
have got to go to the aforementioned people I talked to and we 
have to say to them, we are going to take your money and invest 
it on your behalf. And you get taxpayer dollars in one of two 
ways: either people trust you, which is rare, or you threaten 
them, which is the underlying motive. You say, we are going to 
put a gun to your head and take your money to put it towards 
the Large Hadron Collider, which then is going to melt its 
connections the first time we fire it up. Walk me through your 
mental process, because it is not just about the cost and yes, 
there are some neat things that happen, side effects and some 
neat direct discoveries. But there are also opportunity costs, 
opportunity costs to the folks whose money we take is, ``I 
could have spent that on my kids' education, a new car, 
repairing the roof.'' But the opportunity costs on a broad 
societal scale is, we have thousands of other problems and the 
money we spend on the big gizmos you folks work with is money 
we can't spend on other things that might actually have more 
immediate and more direct benefit to a society and economy that 
are in trouble. Walk us through how you--other than just 
``gosh, we are really curious and we really want to get this,'' 
how do you rationalize the economic costs? I mean, how do you 
say yes, if we spend X amount of new money on the new ILC which 
will then afterwards have the next ILC or whatever, how do you 
do it? Give us some insights into that. What goes on in your 
heads and in your organizations?
    Dr. Kovar. Let me take a cut at this because this is what I 
have to do every year when we present our budget to Congress. 
There are several ways of answering this question. One part of 
it has to do with those things that we have control over, and 
so within the Office of Science we work very hard to set up 
project management practices so that when we start projects we 
bring them in on cost, on schedule and they perform. And we 
work very hard to do it but you have got to remember that 
everything we do here--it is sort of along the line of what 
Pier talked about is one of a kind. Generally it is an advance. 
It is defining the state of the art. So it is high risk, okay? 
Part of the benefits that we have--and I want to point out that 
our contribution to the LHC is sitting there and it is working, 
I mean, as best we can tell. Knock on wood, I mean, but it is 
working. On the other hand, I want to point out that it is a 
very complicated machine, and there are two gentlemen to my 
left who know about these much better than I do, but it is the 
most complicated accelerator that has been built. And so down 
the road it is going to run, it is going to work, but it is not 
good right now. Two months from now when it starts running, a 
lot of people will breathe a big sigh of relief but the 
expectation is that it is going to run at some point.
    Now, for part of this investment that the country has made, 
we have already reaped the benefits. I mean, the next 
generation of electronics, the silicon detectors, the next 
generation superconducting magnets. For example, in the United 
States we developed something through our R&D program that is 
niobium-tin. It is a new alloy that we use for superconducting 
magnets and I think ITER placed an order to the United States 
for $60 million to produce that for the facility in France. 
That was developed in the United States. It is going to be 
spent in the United States. During this period of time there is 
a whole generation of students and it turns out 20 percent 
remain in the field. The other 80 percent are in industry, they 
are in government, they are in national labs and security and 
medical facilities, so it turns out those investments are the 
investments and I think the thing that you also get, and it 
is--I am going to repeat a little of what Pier and Mont 
described. I mean, we are in fact addressing these questions 
that just are spectacular in terms of their interest for the 
general public, you know, my cousins and my uncles in Texas, 
they appreciate it. I come and talk to them and they are just 
fascinated by it. However, there are a whole bunch of questions 
where there are remarkable breakthroughs but they are so 
technical and only the experts can really appreciate it. And we 
should develop a way, a language, so we can communicate that to 
you.
    But the other part of this is all of these benefits to 
society, and it is the job that any program manager, federal 
program manager has in trying to convey exactly what these 
benefits to society are and how do we document that in a way 
that you can explain. You know, my wife is a nurse and she 
understands making people better and what the benefits of this 
are. These longer-term benefits really need to be articulated 
better, okay? And in that regard, I think the Office of Science 
now has put together a workforce plan where we are beginning to 
invest in bringing in kids and teachers to our national labs on 
a much larger scale. And so part of this is I think educating 
the American public as to what science is, giving them some 
context. I think all of these are things that I think are very 
important but, you know, in the context of health care and 
Social Security down the road and national security, I know all 
of you have an enormous responsibility and these are really 
very tough problems, but in the context. Earlier before you 
came in we looked at what is on the wall here, you know, 
``Where there is no vision, the people perish.'' I think some 
of these longer-term things are just very important for our 
society. I am not sure that I answered your question.
    Chairman Baird. It was appreciated and I thought you were 
very insightful.
    Does anyone else want to take a quick run? I don't want to 
belabor it too much, but with Mr. Inglis's indulgence, it is a 
matter I struggle with. And then Dr. Randall, we will let you 
finish.
    Dr. Montgomery. So you picked two particular examples, SSC 
(Superconducting Super Collider) and LHC. First of all, I think 
they are different beasts, but you picked in fact the two 
projects which have had difficulty, let us say, have had 
challenges. But--this is true, but there are also a number of 
devices which you have supported which do work, which have been 
spectacular successes. I know, for example, and you may not but 
it is certainly true that our colleagues like Dr. Kovar and 
some sitting behind me actually apply, if you like, metrics to 
the way our accelerators perform. And each year as lab director 
I submit our performance against those metrics and that folds 
into the money that we get in the subsequent years so there are 
metrics. And we are successful in a large number of the 
accelerators, it is not confined to Jefferson Laboratory. 
Fermilab has had success with the Tevatron. The SLAC B Factory 
was spectacular. The Relativistic Heavy Iron Collider in 
Brookhaven has done very good work. So you are getting real 
scientific measurements and return on your dollars in general. 
I just wanted to make that point so that it is not entirely a 
question of, did you deliver on the LHC yet or not? Thank you.
    Dr. Randall. So I want to say a couple of things. One is 
just a basic fact about the accelerators which I think is 
important to know. So when the SSC was designed and started to 
be developed, physicists sat down and said what would we like 
to have if we really could make a machine that will really 
probe the physics that we know is there that we really want to 
understand. That was the design people came up with, and with 
the LHC they had an existing tunnel and that is important 
because the existing tunnel had a fixed size. The SSC would 
have been much bigger, which meant that magnets had to be 
stretched to the limit of the technology that was possible. So 
everyone knew when the LHC was being designed it is something 
that is pushing various technology to the limit, and when that 
happens, there are often times when things don't work 
immediately. So just in the context of asking the physics 
community, I mean I think everyone in the physics community, at 
least in this field, would have said the SSC would have been 
the obvious way to go. I would still say, you know, if we could 
fund it, it would be the way to go. And had we done that, it 
would work, and just, it is important to keep in mind the 
Tevatron where Pier is has been remarkably successful. I think 
it doesn't get enough adulation, in fact, because it has been 
extended to energies and luminosities beyond what was ever 
prepared in the beginning. So when physicists have the 
opportunity to do what they really want to do when it is 
available, it has been successful, and in terms of the LHC, it 
is just, I mean, we are disappointed but it is just a question 
of time at this point, which means to get these things up and 
running. But the SSC would still have been a better machine. It 
would have been three times the energy. There is just no 
comparison. And so I mean, I do think it is tragic that that 
was stopped and it would have been running by now.
    I think in terms of the other questions you asked, I mean, 
this is something I am actually curious about. Whenever they 
compare science funding, it always gets compared to, you know, 
I don't know, saving babies or something. I mean, there are a 
lot of things we spend money on that aren't necessarily 
directly working for the benefit of humanity. And I think in 
terms of, when we ask what it is to make progress, we really 
have to think about what is the role of government, what do we 
want to be funding, and the government is working on things 
that wouldn't happen otherwise. If it is something that an 
entrepreneurial interest is going to take over, then it will 
happen. It is things that are more strategic, more long-term 
that ultimately will have benefits but don't necessarily have 
them in the next second. And the kind of physics that we are 
doing, I mean, it is a different type of science than a lot of 
other types of science, in that we are formulating very precise 
questions at very remote energies and distances. We will make 
progress, and a lot of the other types of science are very 
important but it is not--you hear a lot of buzz but it is 
different than actually making progress in the sense of 20 
years down the line you can say, what do we have? And here we 
have some definite goal and we do know what it means to make an 
event. That is not to say one should be done at the expense of 
another but it is just a very different type of thing and I 
think there is a strong argument for it.
    Dr. Oddone. I appreciate the struggles that you have with 
the many practical problems that the Nation faces and how to 
make a judgment about what should be invested in this. In the 
end it really has to be justified by the results. Now, it is 
not fair to say the SSC was a bad idea because it never 
produced anything. Well, Congress stopped it so it never 
produced anything, so it is not really in some sense an example 
of a failed science project. And I think it is too early to 
judge on the LHC. Our laboratory, even though we compete in 
terms of finding the Higgs-Boson with our Tevatron and so on, 
we have sent some of our best people over to CERN to help them 
understand the issues that were involved in that machine, and I 
completely agree with you that our field is in deep, deep 
trouble globally if we do not deliver on the Large Hadron 
Collider. So our intent is absolutely to deliver and I hope 
that if you have a hearing two or three years from now you 
actually would tell me, you know, why didn't we do that rather 
than, in some sense, letting the Europeans do it? Because the 
kinds of things that will be discovered will in fact set the 
tone for the world for what is really coming in our way that is 
unimagined.
    A lot of the science that we do is absolutely neat, but I 
say it is imaginable. I can imagine how I modify a molecule to 
dock in some substance that I can then use to affect disease. I 
can imagine how I may modify a surface, the atomic surface of a 
material in order to get a better material. There are lots and 
lots of things in science that are absolutely neat, wonderful, 
I support them and they are imaginable. I think when we 
actually tackle the questions that Lisa has asked, when we open 
this new regime, the Large Hadron Collider will be seven times 
the energy, 30 times the intensity that we have, we really are 
poking into the unimaginable. We may be astounded at what we 
find, things that we haven't been able to even imagine. We have 
lots of imagination. We have made all these theories and so on 
but we actually--that is the nature of the frontier. We may be 
going towards the spices in India but we may run into America, 
in some sense, with the Large Hadron Collider. And I think that 
is what you are getting a ticket at the table for, to be there 
and be doing those things.
    Chairman Baird. Thank you. I appreciate very much the 
testimony, your expertise and your patience with us as you try 
to educate us on matters rather arcane to most of us on the 
Committee. With that, the hearing stands adjourned with the 
gratitude of the Members. Thank you very much.
    [Whereupon, at 1:52 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record


Superconducting Particle Accelerator Forum of the Americas
100 M St. SE, Suite 1200
Washington, DC 20003

Hon. Brian Baird
Chairman, Energy and Environment Subcommittee
Science and Technology Committee
2350 Rayburn House Office Building
Washington, DC 20515

Oct. 3, 2009

Dear Chairman Baird:

    The Superconducting Particle Accelerator Forum of the 
Americas, SPAFOA, a not-for-profit industry forum registered in 
the District of Columbia. Our activities are totally supported 
by member dues. The goal of the SPAFOA is to provide a 
partnership between our industry members and government funded 
superconducting accelerator programs during their design, 
component prototyping, manufacturing, siting and installation.
    We appreciate this opportunity to submit written testimony 
providing our views on the need for and value of an integrated 
formal industrialization program during the R&D phases of major 
DOE science programs. Integrating the systems engineering, 
manufacturing, and equipment operational capabilities of 
industry with the world class research capabilities on the 
National Laboratories on these programs would be mutually 
beneficial. For example, the laboratories would gain industry's 
expertise in manufacturing and assembly to incorporate into 
laboratory prototypes, thus lowering equipment costs and 
increasing end use reliability. Industry would gain a better 
understanding of the fundamental parameters that impact 
component performance allowing it to modify designs for future 
commercial applications.
    The SPAFOA therefore recommends the Energy and Environment 
Subcommittee request DOE to adopt an industrialization approach 
during the planning and implementation of major programs. 
Further elaboration on this issue is shown on the attached 
white paper, ``Industrialization of Advanced Accelerator 
Technology,'' which was submitted to the DOE Accelerators for 
Americas Future symposium and workshop on Oct. 26-28.
    Thank you for your consideration in this matter.

                  





Kenneth O. Olsen, P.E.                  Dr. John V. Dugan
President                               Vice President


Kenneth O. Olsen
Superconducting Particle Accelerator
Forum of the Americas
Industry Working Group

          Industrialization of Advanced Accelerator Technology

Introduction:

    The accelerator symposium working groups are charged with 
identifying the Nation's future R&D needs for accelerator technology in 
five distinct application areas. Government R&D investments in 
accelerator technology for science programs over the decades has lead 
major technological advances. In order for these advances to benefit 
society in multiple applications, they must be implemented by the 
private sector. Also, since the Nation's accelerator R&D expertise 
resides mostly at the national labs and universities, it is anticipated 
that many of the working groups' recommendations will require 
government R&D investment to further advance the state of the art. 
However, in order for American industry to expedite the adoption of 
these technologies and compete in the global marketplace for government 
and private sector applications, the government must develop a formal 
industrialization program to integrate the country's industrial base 
into their R&D programs.
    Industrialization activities must be focused on two distinct market 
sectors;

        <bullet>  Federal: The federal sector R&D is dominated by DOE's 
        Office of Science and to some degree National Science 
        Foundation programs at the national laboratories and 
        universities. Industry must become a true partner in these R&D 
        efforts to gain the necessary technical design background. 
        Conversely, industry can educate the laboratories on 
        manufacturing, installation and operability of deployed 
        systems.

        <bullet>  Commercial: The commercial sector tends to adopt 
        advanced technologies developed and deployed by the government. 
        Generally this occurs once the major technical risks have been 
        reduced. Perhaps the best example of this is in aerospace where 
        technologies developed for the military migrate to commercial 
        aviation over time.

Objective:

    Industrialization of accelerators will prepare industry to cost-
effectively produce accelerator components and systems. The main 
objective must be to reduce the learning curve through technology 
transfer and provide industry with the support needed to bridge the gap 
between R&D and deployment, especially for commercial applications. 
Industrialization requires two-way technology transfer during the early 
stages of government sponsored accelerator R&D to educate industry on 
the R&D programs and technical progress of accelerator programs in the 
labs and to educate the laboratories on production engineering and post 
deployment operational issues such as reliability and maintainability 
that should be integrated into their R&D activities. Industry needs to 
develop the capability to cost effectively respond to requests for low 
production specialty products and develop production expertise to 
manufacture large quantities of accelerator components to meet the 
requirements on future large science programs such as the International 
Linear Collider (ILC).

Global Activities:

    The potential of advanced accelerator technology applications has 
initiated the formation of government-academia-industry coordinating 
groups in many parts of the world. Asia and Europe have recognized the 
importance of accelerator industrialization and have set up programs to 
integrate it into their accelerator programs. Since these regions have 
different laws and cultural backgrounds, one cannot do an across the 
board comparison of their activities to the situation in America. 
However, it is clear they recognize the importance of industry, 
academia, and government cooperation. It is also reasonable to assume 
that they are partially or totally supported by government funds. A 
brief description of each is a follows:

    Japan: The ``Advanced Accelerator Association Promoting Science and 
Technology,'' referred to as the Advanced Accelerator Association (AAA) 
was established in June 2008 to facilitate Industry-Government-Academia 
collaboration and to promote and seek various industrial applications 
of advanced accelerator and technologies derived from R&D, excluding 
creating new drug, biotechnology and medical uses. As of April 1, 2009 
the AAA had a total of 100 members, two-thirds from industry. AAA 
activities include worldwide outreach of significant advanced 
accelerator developments, seeking ways to handle intellectual property 
within the ILC project and integrating manufacturing technologies from 
a variety of industrial fields to create innovative scientific 
technologies.

    Europe: The ``European Industry Forum for Accelerators with SCRF 
Technology'' (EIFast) was founded in October 2005 to maintain and 
further strengthen the position of European science and industry in 
SCRF. As a united voice of European research and industry, EIFast 
promotes the realization of European and global SCRF projects. The 
organization has 47 current members, the large majority of whom are 
from the European industrial base. The organization interfaces with two 
main scientific programs: The European X-Ray Laser Project (XFEL) and 
the ILC.

    An industrial forum was established in the Americas in 2005 to 
support the ILC Americas Regional Team industrialization efforts, 
called the Linear Collider Forum of America. That forum recently 
reorganized based on the delays of the projected ILC program schedule 
and expanded its program coverage to all SCRF based accelerator 
programs in the Americas. It is now called the Superconducting Particle 
Accelerator Forum of the Americas. The forum has 16 current members and 
is totally supported by private sector member dues.

Approach:

    This symposium and subsequent workshops will be examining the past, 
present and future of accelerators in five major application areas. It 
is assumed that the large majority of accelerator technology advances 
will occur in the R&D areas within discovery science area since they 
will be developing leading edge technology. The design and construction 
of these accelerator based activities, the majority of them 
incorporating superconducting technology, will advance the state-of-
the-art which will then be transferred to security, energy, medical, 
and industrial applications. A knowledgeable industrial base will 
expedite this transfer process and prepare industry to compete in the 
global marketplace.
    The importance of industrialization became apparent within the 
three regions supporting the ILC program. The technical specifications, 
production quantities, and original program schedule placed a 
significant challenge on industry in Asia, Europe, and the Americas. 
Clearly a post R&D industrial briefing would present a steep learning 
curve and would not be adequate to meet these requirements. There are 
several other government programs in the Americas that, when taken 
together, accumulate into a significant requirement for the accelerator 
industry. A sample of these is as follows:

        <bullet>  Continuous Electron Beam Accelerator facility (CEBAF) 
        Upgrade, JLAB

        <bullet>  Relativistic Heavy Ion Collider, (RHIC) BNL

        <bullet>  Energy Recovery LINAC, BNL

        <bullet>  Facility for Rare Isotope Beams (FRIB), MSU

        <bullet>  Project X, Fermilab

        <bullet>  Cornell Energy Recovery Linac

        <bullet>  Mo99 Production, TRIUMF

        <bullet>  U.S. Navy Free Electron Laser (FEL) Ship Self 
        Defense, ONR

    Therefore, government must develop a comprehensive 
industrialization program for these activities to prepare industry to 
compete on a level field with its global competitors. Other parts of 
the world have developed approaches to integrate their industries with 
government activities. Within the U.S., the program must take into 
account the various legal constraints and available incentives that are 
unique to the country such as the Buy America Act, Stimulus Funding, 
CRADAs, SBIRs, cost sharing contracts, personnel exchanges to 
collaborate with on-site R&D activities at the laboratories, etc. 
Failure to do so will greatly weaken the ability of our industries to 
compete in the global marketplace. Note that an industrialization 
program which focuses funding primarily through the SBIR program is not 
acceptable to industry.

Recommendations:

    The following recommendations are suggested to implement a formal 
industrialization component for government funded accelerator R&D 
activities:

        1.  DOE SC should assign a role of accelerator R&D program 
        coordinator within the Director's senior staff. This person can 
        examine the cross-cutting opportunities across SC for R&D 
        program integration among HEP, NE, other areas of DOE and other 
        federal agencies and department.

        2.  Establish an accelerator technology advisory group of 
        laboratories, universities, component producers and end-users 
        to develop innovative ways to transfer government funded 
        technologies to the private sector.

        3.  Examine the various DOE contractual and cost sharing 
        methods available to the laboratories to work collaboratively 
        with industry during the R&D phases of major accelerator 
        programs.

        4.  Place more emphasis on demonstration and financing 
        incentives for commercial accelerator applications.

        5.  Require program plans for government funded accelerator R&D 
        projects to include an industrialization element with a funding 
        commitment.

                                   

</pre></body></html>
